P-1909
Rev. 3/20

SECURED CARD ACCOUNT AGREEMENT
Table of Contents

SECURITY INTEREST
SUMMARY OF KEY TERMS
AGREEMENT TERMS
Costs
Overdraft Protection
Payments
Amendment (Changes) and Assignment
Additional Information
Arbitration Provision
Your Billing Rights
Security Agreement
PLEDGE OF SECURITY
INTEREST IN YOUR
SECURED SAVINGS
ACCOUNT

The most current version of this Security Agreement shall be
published online. The online version of the agreement supersedes any prior written version. Bolded words or phrases are
defined terms, which are explained in the Definitions section
of the Card Account Agreement.

Your Card Account is a secured account, meaning You have pledged collateral to ensure repayment
of the Credit that SunTrust provides You and any other debt that You owe SunTrust on Your Card
Account.
Pledge of Collateral
In consideration for the Bank issuing this Card Account to You, You have opened a Savings Account
called the “Secured Card Savings Account” according to these parameters. The Savings Account must:
 be titled in the same name(s) of the initial Cardholder(s) when the Card Account is opened and
no other name(s);
 be opened with a deposit that equals the amount of Your revolving Credit Limit; and
 remain open during the duration of Your Card Account.
You cannot add/change Cardholders on Your Card Account after it is established, as the Cardholder
and Savings Account owner names must match.
To secure all amounts You may owe, including but not limited to interest, fees, and charges, which accrue
on Your Card Account and all of Your other obligations on Your Card Account, You assign, transfer,
and pledge a security interest in and grant the Bank all rights, title, and interest in the Savings Account
and in all renewals, additions, and funds/earnings of the Savings Account. If Your Savings Account
is closed for any reason, SunTrust may terminate Your Card Account in accordance with the terms of
this Agreement.
The primary rules and regulations for your Savings Account are described in the Bank Rules and
Regulations for Deposit Accounts booklet provided to You separately. This Savings Account has
additional terms/restrictions that include the following.
 At all times during the duration of Your Card Account, You must maintain funds in the Savings
Account that cover the amount of Your Credit Limit.
 You may not make withdrawals from the Savings Account while it secures Your Card Account.
This restriction includes, but is not limited to, withdrawals of any funds at a branch, through an
ATM, through online transactions, through overdraft protection to a checking account, or by any
other method.
 You are not allowed to make additional deposits to this Savings Account, except when additional
deposit(s) is/are required for the Savings Account balance to cover the Card Account Credit
Limit.
 No transfer of ownership of the Savings Account to another person upon death of the
Cardholder(s) is permitted.
Right of Bank to Control and Use Savings Account
You agree that this security interest, pledge, and assignment provides the Bank the right to redeem,
collect, and withdraw any part or the full amount of the Savings Account to satisfy Your obligations under
this Agreement upon Your Default under this Agreement or if Your Card Account is terminated for any
reason. You acknowledge and agree that this security interest, pledge, and assignment gives the Bank
exclusive control over the Savings Account. You agree that if Your Card Account is closed for any
reason, SunTrust may apply funds in the Savings Account to pay off any balance on the Card Account.
What SunTrust Does with Funds Remaining in Savings Account When Savings Account May
Be Closed or is No Longer Required
1.

If You Default under this Agreement or Your Card Account is terminated for any reason and
SunTrust must apply funds in the Savings Account to pay off any outstanding Balance on Your
Card Account, if funds remain in the Savings Account after SunTrust pays off the Balance
on the Card Account, SunTrust will remit these funds to You within 30 days after Your Card
Account is closed.

2.

If SunTrust graduates You to an unsecured credit card account so that the Savings Account
and security interest are no longer required and Your Card Account is in good standing, You

hereby authorize SunTrust to conver

This Essential Savings account will
that secured Your Card Account. Y
restricted. This means You may mak
account for online banking and regis
statement monthly fee. If You do cho
a $3 monthly fee will be charged. Oth
terms and conditions on the Persona
content/dam/suntrust/us/en/personal-

If You do not wish to maintain
SunTrust at 800-786-8787 or visit a
Savings Account to an Essential
these funds, and SunTrust will hon
Duration of Security Agreement

Your security agreement will remain in effect u
has been paid in full and (b) all other obligatio

Waiver of Rights and Other Legal Matter

You waive any right to require SunTrust
Authorized User on Your Card Account; or
security agreement before SunTrust pursues
stated in this security agreement are in additio
is a conflict regarding this security interest an
represent that no insolvency proceeding or ge
Your grant of this security interest. You waive
with this security interest.
Assignment

SunTrust has the right to Assign its rights u
SunTrust may Assign its rights without You
benefits of SunTrust under the Security Agr
to SunTrust’s successors and assigns, inclu
through a merger with SunTrust.
Enforcement of Security Interest

You hereby irrevocably appoint the Bank as a
Your debt under the Card Account. The m
be published online. The online version of th
words or phrases are defined terms, which a
Agreement.
Secured Card Account
Agreement
SUMMARY OF KEY TERMS

For each
https://ww
Everyday
at the end

When are You bound by the
CA Terms?

Your Car
agree to t
(2) You or
obtaining

What types of transactions
might You make with the
Card/Account and how are
these transactions itemized
on Your bill each month?

 You m
Cash
fers.
Cardh
action
 Each
terms;
togeth
count
amoun
Your A
Intere
to You

P-1909
Rev. 3/20

rsion of this Security Agreement shall be
he online version of the agreement superten version. Bolded words or phrases are
h are explained in the Definitions section
Agreement.

u have pledged collateral to ensure repayment
er debt that You owe SunTrust on Your Card

to You, You have opened a Savings Account
hese parameters. The Savings Account must:
older(s) when the Card Account is opened and

of Your revolving Credit Limit; and
ccount.

count after it is established, as the Cardholder

ited to interest, fees, and charges, which accrue
on Your Card Account, You assign, transfer,
ghts, title, and interest in the Savings Account
Savings Account. If Your Savings Account
Card Account in accordance with the terms of

ccount are described in the Bank Rules and
You separately. This Savings Account has

count, You must maintain funds in the Savings
imit.
s Account while it secures Your Card Account.
hdrawals of any funds at a branch, through an
raft protection to a checking account, or by any

o this Savings Account, except when additional
unt balance to cover the Card Account Credit

count to another person upon death of the

nment provides the Bank the right to redeem,
vings Account to satisfy Your obligations under
nt or if Your Card Account is terminated for any
terest, pledge, and assignment gives the Bank
e that if Your Card Account is closed for any
nt to pay off any balance on the Card Account.

ings Account When Savings Account May

ard Account is terminated for any reason and
unt to pay off any outstanding Balance on Your
Account after SunTrust pays off the Balance
e funds to You within 30 days after Your Card

dit card account so that the Savings Account
Your Card Account is in good standing, You

hereby authorize SunTrust to convert Your Savings Account to a Essential Savings account.
This Essential Savings account will be titled in the same name(s) as the Savings Account
that secured Your Card Account. Your access to the Essential Savings account will not be
restricted. This means You may make additional deposits and withdrawals You must enroll your
account for online banking and register to receive paperless statements to avoid the $3 paper
statement monthly fee. If You do choose to receive paper account statements through U.S. Mail
a $3 monthly fee will be charged. Other fees might apply – see: for full Essential Savings account
terms and conditions on the Personal Deposit Accounts Fee Schedule https://www.suntrust.com/
content/dam/suntrust/us/en/personal-banking/2019/documents/fs-retail-english.pdf.

What You Pay, when, how,
and what happens if You
pay late?

 The M
over Yo
the Ne
Interes
is less
Balanc
still mu
ments
in U.S.
the Sta
 If You
Date, S
Accou
Late P
to rate
Trust
Your A

If You do not wish to maintain an Essential Savings account with these funds, call
SunTrust at 800-786-8787 or visit a SunTrust branch after SunTrust converts Your existing
Savings Account to an Essential Savings account to request some other disposition of
these funds, and SunTrust will honor Your request.
Duration of Security Agreement
Your security agreement will remain in effect until (a) all of Your debt to the Bank on Your Card Account
has been paid in full and (b) all other obligations secured by this Agreement have been fulfilled.
Waiver of Rights and Other Legal Matters regarding the Security Interest
You waive any right to require SunTrust to: (a) proceed against You, any other Cardholder, or
Authorized User on Your Card Account; or (b) proceed against or exhaust any security held under this
security agreement before SunTrust pursues any other remedy in SunTrust’s power. The Bank’s rights
stated in this security agreement are in addition to any others SunTrust has under applicable law. If there
is a conflict regarding this security interest and any other agreement, this Agreement will control. You
represent that no insolvency proceeding or general assignment for creditors is pending that would affect
Your grant of this security interest. You waive any defense You may have against SunTrust, associated
with this security interest.

How will SunTrust apply
Your payments?

 You ag
be app
 SunTr
Balanc
Rate).
genera
and an
order b
applica
connec
 Payme
Credit
be a d
determ
insuffic

What other important terms
exist in the CA?

Your liabil
happens if
Credit Li
spending l
Individual
liable for a
Terminatio
Credit at a
Sharing
information
others; ref
Arbitratio
claims; Yo
upon claim
Billing Di
charges/ar
merchants
Defined T

Assignment
SunTrust has the right to Assign its rights under the Security Agreement and the Savings Account.
SunTrust may Assign its rights without Your consent and without prior notice to You. The rights and
benefits of SunTrust under the Security Agreement and Savings Account shall automatically transfer
to SunTrust’s successors and assigns, including any entity that acquires SunTrust and/or is created
through a merger with SunTrust.
Enforcement of Security Interest
You hereby irrevocably appoint the Bank as attorney-in-fact to execute any instruments required to satisfy
Your debt under the Card Account. The most current version of this Card Account Agreement shall
be published online. The online version of the agreement supersedes any prior written version. Bolded
words or phrases are defined terms, which are explained in the Definitions section of the Card Account
Agreement.
Secured Card Account
Agreement
SUMMARY OF KEY TERMS

For each bolded word or phrase, the definition is provided at
https://www.suntrust.com/PersonalBanking/
EverydayBanking/CreditCards and in the definitions section
at the end of this Agreement.

When are You bound by the
CA Terms?

Your Card Account Agreement with SunTrust starts and You
agree to the terms when (1) You accept and/or sign the Card or
(2) You or an Authorized User use(s) the Card or Account, thus
obtaining Credit from SunTrust.

What types of transactions
might You make with the
Card/Account and how are
these transactions itemized
on Your bill each month?

 You may use Your Card/Account to make legal Purchases,
Cash Advances, Overdraft Advances and Balance Transfers. You are responsible for transactions that You, other
Cardholders, and Authorized Users make, whether the transactions are legal or not.
 Each type of transaction has different associated costs and
terms; each transaction type and associated costs are grouped
together and detailed in Your monthly Statement (Card Account bill) by transaction type. The combined outstanding
amount of each transaction type is Your New Balance due on
Your Account each month (Billing Period). You must pay all
Interest Charges, fees, and Other Charges properly charged
to Your Account.

 SunTr
to pay
the op
Statem
amoun
In eithe
after th

Interest Charges and
Transaction Fees in
General:

Interest Rates and Interest
Charges based upon Credit
Inquiries:

SunTrust
Balance (
uses com
Compound
that You o
Period on
Card Mail
Periodic R
Other Cha

Your eligib
other CA te
authorize S
and inves
appropriat
a Card Ac
to Your
Account,
permissibl

ngs Account to a Essential Savings account.

the same name(s) as the Savings Account
to the Essential Savings account will not be
deposits and withdrawals You must enroll your
e paperless statements to avoid the $3 paper
ve paper account statements through U.S. Mail
t apply – see: for full Essential Savings account
counts Fee Schedule https://www.suntrust.com/
9/documents/fs-retail-english.pdf.

What You Pay, when, how,
and what happens if You
pay late?

al Savings account with these funds, call
ranch after SunTrust converts Your existing
count to request some other disposition of
uest.

Your debt to the Bank on Your Card Account
by this Agreement have been fulfilled.
the Security Interest

eed against You, any other Cardholder, or
against or exhaust any security held under this
emedy in SunTrust’s power. The Bank’s rights
ers SunTrust has under applicable law. If there
agreement, this Agreement will control. You
nment for creditors is pending that would affect
e You may have against SunTrust, associated

How will SunTrust apply
Your payments?

curity Agreement and the Savings Account.
nd without prior notice to You. The rights and
Savings Account shall automatically transfer
ntity that acquires SunTrust and/or is created

ct to execute any instruments required to satisfy
version of this Card Account Agreement shall
t supersedes any prior written version. Bolded
in the Definitions section of the Card Account

d or phrase, the definition is provided at
.com/PersonalBanking/
editCards and in the definitions section
reement.

What other important terms
exist in the CA?

Agreement with SunTrust starts and You
hen (1) You accept and/or sign the Card or
zed User use(s) the Card or Account, thus
SunTrust.

r Card/Account to make legal Purchases,
Overdraft Advances and Balance Transsponsible for transactions that You, other
Authorized Users make, whether the transr not.
saction has different associated costs and
ction type and associated costs are grouped
iled in Your monthly Statement (Card Acnsaction type. The combined outstanding
ansaction type is Your New Balance due on
ch month (Billing Period). You must pay all
fees, and Other Charges properly charged

Interest Charges and
Transaction Fees in
General:

Interest Rates and Interest
Charges based upon Credit
Inquiries:

 SunTrust will send You a monthly Statement (bill). You agree
to pay all Authorized Charges on the Statement. You have
the option of paying in full the New Balance shown on each
Statement or paying in installments that at least equal the
amount of the Minimum Payment shown on Your Statement.
In either case, the payment Due Date will be at least 25 days
after the Closing Date of Your Statement.

Cost on Purchases:
SunTrust will charge the
Interest Charge (unless
inapplicable because
of the Grace Period) on
Your Purchases from the
transaction date.

 The Minimum Payment will include any amount past due or
over Your Credit Limit plus the greater of (1) $25.00, (2) 2% of
the New Balance, or (3) 1% of the New Balance plus current
Interest Charges and Other Charges. If the New Balance
is less than $25.00, the Minimum Payment will be the New
Balance. If You pay more than the Minimum Payment, You
still must make the Minimum Payment on subsequent Statements until You have fully paid what You owe. You must pay
in U.S. dollars, without restrictive terms, and in accordance with
the Standard Payment Instructions.
 If You do not pay at least the Minimum Payment by the Due
Date, SunTrust will charge a Late Payment fee, unless Your
Account is exempt from Late Payment fees. If You make a
Late Payment, You will be in Default and You may be subject
to rate increases. If You are in Default for any reason, SunTrust can require that the entire outstanding full Balance on
Your Account be immediately paid.

 Any Pu
Statem
month’s
 The c
it appl
multipli
(2) the
 You wi
reflecte
Your N
Purcha
Billing
the con

Costs on Cash Advances:
SunTrust will charge the
Interest Charge on Your Cash
Advances from the date they
are posted to Your Account.

The costs
at the app
Advances
Interest Ch
multiplied b
the applica

Cost on Overdraft
Advances:
SunTrust will charge the
Interest Charge on Your
Overdraft Advances from the
date they are posted to Your
Account.

The cost o
Average D
the numbe
DPR. In a
Accounts,
for such se
fees. Over

Costs on Balance
Transfers:
When SunTrust provides You
a Balance Transfer check or
Balance Transfer request
form or when You request a
Balance Transfer, SunTrust
will charge the Interest
Charge on Your Balance
Transfer from the date it is
posted to Your Account.

 The co
comput
Balanc
transac
 The DP
Balanc
Billing

 You agree that the Minimum Payments on Your Account will
be applied in the order SunTrust selects.
 SunTrust may allocate Your Minimum Payments to
Balances starting with the lowest APR (Annual Percentage
Rate). Payments in excess of the Minimum Payment will
generally be applied first to Balances with the highest APR
and any remaining portion to the other Balances in descending
order based on their APRs, unless SunTrust is required by
applicable law to use a different payment application method in
connection with a deferred interest or similar program.
 Payments are normally applied to restore Your available
Credit (the amount of Your unused Credit Limit). There may
be a delay in restoring Your available Credit until SunTrust
determines whether a payment is likely to be returned for
insufficient funds or for some other reason.
Your liability for unauthorized use of the Card – what to do/what
happens if Your Card is stolen.
Credit Limits, Authorization, and Convenience Checks –
spending limits/transaction authorization.
Individual Liability – each Cardholder is individually and jointly
liable for all Authorized Charges.
Termination – You or SunTrust can terminate or suspend Your
Credit at any time with/without cause.
Sharing of Information – how SunTrust safeguards your
information/how-when SunTrust may disclose Your information to
others; refers to SunTrust’s Privacy Statement.
Arbitration – the way in which You and SunTrust agree to resolve
claims; You have the right to opt out of arbitration as the agreed
upon claims resolution method.
Billing Dispute Rights – details Your rights if You dispute
charges/are not satisfied with good/services You procure from
merchants using Your Card/Account.
Defined Terms – defines all essential terms used in the CA.
SunTrust calculates Interest Charges using the Average Daily
Balance (including new transactions) method. SunTrust also
uses compounded interest in calculating Interest Charges.
Compounded interest means that interest is added to the principal
that You owe and interest then applied each successive Billing
Period on the outstanding Balance and new charges. [See the
Card Mailer for disclosure of APRs, corresponding DPRs (Daily
Periodic Rate), Minimum Interest Charge, transaction fees, and
Other Charges.]
Your eligibility for Credit, initial and on-going Interest Rates, and
other CA terms may vary based upon Your credit worthiness. You
authorize SunTrust to make or have made any credit, employment,
and investigative inquiries about You that SunTrust deems
appropriate about: (1) whether SunTrust will provide You with
a Card Account and if so at what rates/terms, (2) modifications
to Your Card Account rates/terms while You maintain the
Account, or (3) collection of Credit under Your Account and other
permissible purposes as the law allows.

Foreign Currency
Exchange Fee on
Non-US Transactions:

 SunTru
Promo
Charge
Those
the Ba
informs
Grace

 All Pur
a foreig
regulati
of the
Accoun

 SunTru
Purcha
 Conver
transac
Statem
Credit
differen
of the
transac

You a monthly Statement (bill). You agree
ed Charges on the Statement. You have
g in full the New Balance shown on each
ing in installments that at least equal the
mum Payment shown on Your Statement.
payment Due Date will be at least 25 days
Date of Your Statement.

Cost on Purchases:
SunTrust will charge the
Interest Charge (unless
inapplicable because
of the Grace Period) on
Your Purchases from the
transaction date.

yment will include any amount past due or
imit plus the greater of (1) $25.00, (2) 2% of
or (3) 1% of the New Balance plus current
and Other Charges. If the New Balance
0, the Minimum Payment will be the New
ay more than the Minimum Payment, You
Minimum Payment on subsequent Stateave fully paid what You owe. You must pay
out restrictive terms, and in accordance with
ment Instructions.
at least the Minimum Payment by the Due
ll charge a Late Payment fee, unless Your
t from Late Payment fees. If You make a
u will be in Default and You may be subject
If You are in Default for any reason, Sunthat the entire outstanding full Balance on
mmediately paid.

 Any Purchase Balance not paid by the Due Date on the
Statement will incur an Interest Charge on the following
month’s Statement.
 The cost for Purchases (DPR Interest Charge, when
it applies) is the Average Daily Balance on Purchases
multiplied by (1) the number of days in the Billing Period and
(2) the applicable DPR.
 You will have a Grace Period on any new Purchases that are
reflected for the first time on Your current Statement if You pay
Your New Balance on time each Billing Period. Those new
Purchases will not be subject to an Interest Charge during the
Billing Period reflected in the current Statement if You satisfy
the conditions for applicability of the Grace Period.

Costs on Cash Advances:
SunTrust will charge the
Interest Charge on Your Cash
Advances from the date they
are posted to Your Account.

The costs for Cash Advances consist of (1) interest computed
at the applicable DPR on the Average Daily Balance (for Cash
Advances) and (2) Cash Advance transaction fees. The DPR
Interest Charge is the Average Daily Balance on Cash Advances
multiplied by (1) the number of days in the Billing Period and (2)
the applicable DPR. Cash Advances do not have a Grace Period.

Minimum Payments on Your Account will
der SunTrust selects.
allocate Your Minimum Payments to
with the lowest APR (Annual Percentage
in excess of the Minimum Payment will
ed first to Balances with the highest APR
portion to the other Balances in descending
eir APRs, unless SunTrust is required by
se a different payment application method in
deferred interest or similar program.
rmally applied to restore Your available
t of Your unused Credit Limit). There may
oring Your available Credit until SunTrust
er a payment is likely to be returned for
r for some other reason.

Cost on Overdraft
Advances:
SunTrust will charge the
Interest Charge on Your
Overdraft Advances from the
date they are posted to Your
Account.

The cost on Overdraft Advances (DPR Interest Charge) is the
Average Daily Balance on Overdraft Advances multiplied by (1)
the number of days in the Billing Period and (2) the applicable
DPR. In accordance with its Rules and Regulations for Deposit
Accounts, SunTrust will assess You its usual deposit account fee
for such service, separately, and as part of Your deposit Account
fees. Overdraft Advances do not have a Grace Period.

Costs on Balance
Transfers:
When SunTrust provides You
a Balance Transfer check or
Balance Transfer request
form or when You request a
Balance Transfer, SunTrust
will charge the Interest
Charge on Your Balance
Transfer from the date it is
posted to Your Account.

 The costs for Balance Transfers consist of (1) interest
computed at the applicable DPR on the Average Daily
Balance (for Balance Transfers) and (2) Balance Transfer
transaction fees.

thorized use of the Card – what to do/what
s stolen.
orization, and Convenience Checks –
tion authorization.
each Cardholder is individually and jointly
d Charges.
SunTrust can terminate or suspend Your
/without cause.
tion – how SunTrust safeguards your
SunTrust may disclose Your information to
ust’s Privacy Statement.
n which You and SunTrust agree to resolve
right to opt out of arbitration as the agreed
method.
hts – details Your rights if You dispute
fied with good/services You procure from
Card/Account.
es all essential terms used in the CA.

nterest Charges using the Average Daily
ew transactions) method. SunTrust also
nterest in calculating Interest Charges.
means that interest is added to the principal
erest then applied each successive Billing
ding Balance and new charges. [See the
sure of APRs, corresponding DPRs (Daily
mum Interest Charge, transaction fees, and

dit, initial and on-going Interest Rates, and
ary based upon Your credit worthiness. You
make or have made any credit, employment,
uiries about You that SunTrust deems
) whether SunTrust will provide You with
if so at what rates/terms, (2) modifications
unt rates/terms while You maintain the
ion of Credit under Your Account and other
as the law allows.

Foreign Currency
Exchange Fee on
Non-US Transactions:

 The DPR Interest Charge is the Average Daily Balance on
Balance Transfers multiplied by (1) the number of days in the
Billing Period and (2) the applicable DPR.
 SunTrust may from time to time offer You Balance Transfer
Promotional Offers with different Balance Transfer Interest
Charges and transaction fees than the Card Mailer terms.
Those different Interest Charges and fees will be disclosed in
the Balance Transfer Promotional Offer. Unless SunTrust
informs You otherwise, Balance Transfers do not have a
Grace Period.
 All Purchase and Cash Advance transactions processed in
a foreign currency will be converted to U.S. dollars under the
regulations (which affect rate and actual date of the exchange)
of the Card Association before being charged to Your
Account.
 SunTrust will assess a foreign currency transaction fee for all
Purchase transactions processed in a foreign currency.
 Conversion may occur on a date other than the date of the
transaction or the date the transaction is posted to Your
Statement, which may affect the conversion rate used. If a
Credit transaction is processed and has a processing date
different than the original transaction, then the exchange rate
of the Credit can be greater/less than that of the original
transaction.

Other Charges:

Late Paym
Payment fe
Payment b
will add a L
on the New
Statement.
Annual Fee
on the Card
Purchase B
Returned P
Returned P
fee to Your
or authorize
Transfer, C
dishonored
Your paym
institution.
Stop Paym
to Your Pu
on any Con
Balance Tr
Documenta
sales drafts
more than
a fee to Yo
copy unless
any fee if Y
of a billing e
Phone Pay
via phone p
will add the
Your Purch

Minimum Interest Charges:

If You incu
Interest C
Interest Ch
Your State

Changes

SunTrust
in accord
possible

Type of change

What ma

Interest Rate increase on new
charges

In the fi
Rate en
changes

Interest Rate increase on existing Balances

Promotio
Rate cha
is in a wo

Increase or decrease to Credit
Limit

Any reas

Some fees and other terms

Can cha

Secured Card Account
Agreement
AGREEMENT TERMS

For each b
https://ww
ing/CreditC
and in the

Your Card Account Agreement with SunTrus
and/or sign the Card or You or an Authorized
from SunTrust.
Costs

You may use Your Card and Account to make
Balance Transfers. Each type of charge will h
separate DPR and corresponding Interest Cha

You agree to pay SunTrust for all credit extend
Charges and other fees and amounts prope
Account only for legal transactions. It is not S
Account for legal transactions, and You will rem
or not. SunTrust may decline authorization fo
liable if You engage in an illegal transaction.

lance not paid by the Due Date on the
ur an Interest Charge on the following
.

Other Charges:

rchases (DPR Interest Charge, when
Average Daily Balance on Purchases
e number of days in the Billing Period and
PR.
ace Period on any new Purchases that are
time on Your current Statement if You pay
e on time each Billing Period. Those new
be subject to an Interest Charge during the
cted in the current Statement if You satisfy
pplicability of the Grace Period.

dvances consist of (1) interest computed
on the Average Daily Balance (for Cash
ash Advance transaction fees. The DPR
Average Daily Balance on Cash Advances
mber of days in the Billing Period and (2)
ash Advances do not have a Grace Period.

Advances (DPR Interest Charge) is the
e on Overdraft Advances multiplied by (1)
the Billing Period and (2) the applicable
with its Rules and Regulations for Deposit
ll assess You its usual deposit account fee
ately, and as part of Your deposit Account
nces do not have a Grace Period.

lance Transfers consist of (1) interest
applicable DPR on the Average Daily
nce Transfers) and (2) Balance Transfer

Charge is the Average Daily Balance on
multiplied by (1) the number of days in the
(2) the applicable DPR.
m time to time offer You Balance Transfer
s with different Balance Transfer Interest
saction fees than the Card Mailer terms.
erest Charges and fees will be disclosed in
fer Promotional Offer. Unless SunTrust
wise, Balance Transfers do not have a

Cash Advance transactions processed in
will be converted to U.S. dollars under the
affect rate and actual date of the exchange)
ociation before being charged to Your

ss a foreign currency transaction fee for all
ons processed in a foreign currency.

ccur on a date other than the date of the
date the transaction is posted to Your
may affect the conversion rate used. If a
is processed and has a processing date
riginal transaction, then the exchange rate
be greater/less than that of the original

Minimum Interest Charges:

Changes

Late Payment Fee. Unless Your Account is exempt from Late
Payment fees, if SunTrust has not received at least the Minimum
Payment by its Due Date as shown on a Statement, SunTrust
will add a Late Payment fee to Your Purchase Balance based
on the New Balance outstanding as of the Closing Date for the
Statement.
Annual Fee. If Your Account has an annual fee, it will be shown
on the Card Mailer, and SunTrust will add the annual fee to Your
Purchase Balance.
Returned Payment Fee. Unless Your Account is exempt from
Returned Payment fees, SunTrust will add a Returned Payment
fee to Your Purchase Balance if (1) a payment that You make
or authorize is returned to SunTrust unpaid; or (2) any Balance
Transfer, Cash Advance, or Promotional Balance check is
dishonored for any reason. This fee may be imposed even if
Your payment is later re-presented to and paid by Your financial
institution.
Stop Payment Fee. SunTrust will add a $39.00 stop payment fee
to Your Purchase Balance if You ask SunTrust to stop payment
on any Convenience Check drawn on Your Account or on any
Balance Transfer request.
Documentation Fee. SunTrust will provide copies of Statements,
sales drafts, etc., to You upon request. If You request copies of
more than two items during a Billing Period, SunTrust will add
a fee to Your Purchase Balance up to $5.00 for each additional
copy unless prohibited by applicable law. SunTrust will not impose
any fee if Your request is made in connection with written notice
of a billing error.
Phone Pay Fee. If SunTrust agrees to permit You to pay Your bill
via phone pay and applicable law allows, You agree that SunTrust
will add the phone pay fee disclosed at the time of Your request to
Your Purchase Balance.
If You incur Interest Charges in any Billing Period, a minimum
Interest Charge will post to Your Account (such minimum
Interest Charge shown as the “Minimum Interest Charge” on
Your Statement).
SunTrust can change some of Your rates and other terms
in accordance with applicable law. This table shows some
possible changes.

Type of change

What may trigger change

Advance
change

Interest Rate increase on new
charges

In the first year, a Promotional
Rate ends or the Index Rate
changes; after that, any reason

Promotional Rate ends
or Index Rate changes,
no notice; otherwise, 45
days

Interest Rate increase on existing Balances

Promotional period ends, Index
Rate changes, or Your Account
is in a workout arrangement

No notice requirement or
per terms of the workout
arrangement

Increase or decrease to Credit
Limit

Any reason

None

Some fees and other terms

Can change for any reason

Up to 45 days for certain
fees and Minimum Payment changes

Secured Card Account
Agreement
AGREEMENT TERMS

notice

of

For each bolded word or phrase, the definition is provided at
https://www.suntrust.com/PersonalBanking/EverydayBanking/CreditCards
and in the definitions section at the end of this Agreement.

Your Card Account Agreement with SunTrust starts and You agree to these terms when You accept
and/or sign the Card or You or an Authorized User use(s) the Card or Account, thus obtaining credit
from SunTrust.
Costs
You may use Your Card and Account to make Purchases, Cash Advances, Overdraft Advances and
Balance Transfers. Each type of charge will have its own Balance. Each type of Balance may have a
separate DPR and corresponding Interest Charges.
You agree to pay SunTrust for all credit extended on Your Account, plus any Interest Charges, Other
Charges and other fees and amounts properly charged to Your Account. You agree to use Your
Account only for legal transactions. It is not SunTrust’s responsibility to make sure You only use Your
Account for legal transactions, and You will remain responsible to pay for any transactions whether legal
or not. SunTrust may decline authorization for any Internet gambling transaction. SunTrust will not be
liable if You engage in an illegal transaction.

Interest Charges and
Transaction Fees

The conditio
apply depen
Advance, O
al Offer.

SunTrust calculates Interest Charges using t
method. SunTrust also uses compounded i
interest means that interest is added to the
successive Billing Period on the outstanding B
Interest Charges that apply on Your Account
Interest Charge for
Purchases

Cost: Inter
no. days in B

Any Purchase Balance not paid by the Due D
the following month’s Statement. The cost for P
Average Daily Balance on Purchases multipl
(2) the applicable DPR.

You will have a Grace Period on any new Purc
Statement if You pay Your New Balance on tim
subject to an Interest Charge during the Billing
the conditions for applicability of the Grace Per

SunTrust will charge the Interest Charge (unl
Purchases from the transaction date.

The DPR for Purchases (that are subject to Int
on changes in the Index Rate. The Card Maile
or a Non-variable APR.
Interest Charge and
Transaction Fees for Cash
Advances

Costs: Inte
Advances x
transaction

The costs for Cash Advances consist of (1) in
Daily Balance (for Cash Advances) and (2) Ca

The DPR Interest Charge is the Average D
number of days in the Billing Period and (2) th
disclosed in the Card Mailer.

The DPR for Cash Advances may or may not va
Card Mailer discloses whether the Account is

SunTrust will charge the Interest Charge on Yo
Account. Cash Advances do not have a Grac
Interest Charge for
Overdraft Advances

Cost: Inte
Advances x

The cost on Overdraft Advances (DPR Intere
Advances multiplied by (1) the number of day
accordance with its Rules and Regulations for
deposit account fee for such service, separately

The DPR for Overdraft Advances may or ma
Rate. The Card Mailer discloses whether the A

SunTrust will charge the Interest Charge on Yo
Your Account. Overdraft Advances do not ha
Interest Charge and
Transaction Fees for
Balance Transfers

Costs: Int
Transfers x
transaction

The costs for Balance Transfers consist of (1)
Daily Balance (for Balance Transfers) and (2)

The DPR Interest Charge is the Average Da
number of days in the Billing Period and (2)
fee for a ‘regular’ Balance Transfer or ‘Prom
Card Mailer; provided, that SunTrust may from
Offers with different Balance Transfer Intere
terms. Those different Interest Charges and fe
Offer. SunTrust will add the Balance Transfer
unless SunTrust informs You when You make
and Balance Transfer fee will be added to a
Advances).

Unless SunTrust informs You otherwise, Bal
SunTrust provides You a Balance Transfer
request a Balance Transfer, SunTrust will cha
the date it is posted to Your Account.

The DPR for Balance Transfers (that are subje

nless Your Account is exempt from Late
ust has not received at least the Minimum
ate as shown on a Statement, SunTrust
nt fee to Your Purchase Balance based
utstanding as of the Closing Date for the

ccount has an annual fee, it will be shown
d SunTrust will add the annual fee to Your

e. Unless Your Account is exempt from
s, SunTrust will add a Returned Payment
Balance if (1) a payment that You make
d to SunTrust unpaid; or (2) any Balance
nce, or Promotional Balance check is
ason. This fee may be imposed even if
e-presented to and paid by Your financial

unTrust will add a $39.00 stop payment fee
ance if You ask SunTrust to stop payment
Check drawn on Your Account or on any
est.
unTrust will provide copies of Statements,
ou upon request. If You request copies of
uring a Billing Period, SunTrust will add
e Balance up to $5.00 for each additional
by applicable law. SunTrust will not impose
is made in connection with written notice

Trust agrees to permit You to pay Your bill
cable law allows, You agree that SunTrust
ee disclosed at the time of Your request to
e.

harges in any Billing Period, a minimum
post to Your Account (such minimum
n as the “Minimum Interest Charge” on

e some of Your rates and other terms
applicable law. This table shows some

hange

Advance
change

Promotional
Index Rate
any reason

Promotional Rate ends
or Index Rate changes,
no notice; otherwise, 45
days

ends, Index
our Account
gement

No notice requirement or
per terms of the workout
arrangement

eason

notice

of

None
Up to 45 days for certain
fees and Minimum Payment changes

or phrase, the definition is provided at
.com/PersonalBanking/EverydayBank-

section at the end of this Agreement.

You agree to these terms when You accept
) the Card or Account, thus obtaining credit

, Cash Advances, Overdraft Advances and
Balance. Each type of Balance may have a

Account, plus any Interest Charges, Other
to Your Account. You agree to use Your
esponsibility to make sure You only use Your
sible to pay for any transactions whether legal
t gambling transaction. SunTrust will not be

Interest Charges and
Transaction Fees

The conditions under which Interest Charges and transaction fees
apply depend upon whether the transaction is a Purchase, Cash
Advance, Overdraft Advance, Balance Transfer, or Promotional Offer.

SunTrust calculates Interest Charges using the Average Daily Balance (including new transactions)
method. SunTrust also uses compounded interest in calculating Interest Charges. Compounded
interest means that interest is added to the principal that You owe and interest then applied each
successive Billing Period on the outstanding Balance and new charges.
Interest Charges that apply on Your Account are set forth in the Card Mailer.
Interest Charge for
Purchases

Cost: Interest Charge (Average Daily Balance for Purchases x
no. days in Billing Period x DPR)

Any Purchase Balance not paid by the Due Date on the Statement will incur an Interest Charge on
the following month’s Statement. The cost for Purchases (DPR Interest Charge, when it applies) is the
Average Daily Balance on Purchases multiplied by (1) the number of days in the Billing Period and
(2) the applicable DPR.
You will have a Grace Period on any new Purchases that are reflected for the first time on Your current
Statement if You pay Your New Balance on time each Billing Period. Those new Purchases will not be
subject to an Interest Charge during the Billing Period reflected in the current Statement if You satisfy
the conditions for applicability of the Grace Period.
SunTrust will charge the Interest Charge (unless inapplicable because of the Grace Period) on Your
Purchases from the transaction date.
The DPR for Purchases (that are subject to Interest Charges) may or may not vary each month based
on changes in the Index Rate. The Card Mailer discloses whether the Account is subject to a Variable
or a Non-variable APR.
Interest Charge and
Transaction Fees for Cash
Advances

Costs: Interest Charge (Average Daily Balance for Cash
Advances x no. days in Billing Period x DPR) + Cash Advance
transaction fees.

The costs for Cash Advances consist of (1) interest computed at the applicable DPR on the Average
Daily Balance (for Cash Advances) and (2) Cash Advance transaction fees.
The DPR Interest Charge is the Average Daily Balance on Cash Advances multiplied by (1) the
number of days in the Billing Period and (2) the applicable DPR. The Cash Advance transaction fee is
disclosed in the Card Mailer.
The DPR for Cash Advances may or may not vary each month based on changes in the Index Rate. The
Card Mailer discloses whether the Account is subject to a Variable or a Non-variable APR.
SunTrust will charge the Interest Charge on Your Cash Advances from the date they are posted to Your
Account. Cash Advances do not have a Grace Period.
Interest Charge for
Overdraft Advances

Cost: Interest Charge (Average Daily Balance for Overdraft
Advances x no. days in Billing Period x DPR)

The cost on Overdraft Advances (DPR Interest Charge) is the Average Daily Balance on Overdraft
Advances multiplied by (1) the number of days in the Billing Period and (2) the applicable DPR. In
accordance with its Rules and Regulations for Deposit Accounts, SunTrust will assess You its usual
deposit account fee for such service, separately, and as part of Your deposit account fees.
The DPR for Overdraft Advances may or may not vary each month based on changes in the Index
Rate. The Card Mailer discloses whether the Account is subject to a Variable or a Non-variable APR.
SunTrust will charge the Interest Charge on Your Overdraft Advances from the date they are posted to
Your Account. Overdraft Advances do not have a Grace Period.
Interest Charge and
Transaction Fees for
Balance Transfers

Costs: Interest Charge (Average Daily Balance for Balance
Transfers x no. days in Billing Period x DPR) + Balance Transfer
transaction fees.

The costs for Balance Transfers consist of (1) interest computed at the applicable DPR on the Average
Daily Balance (for Balance Transfers) and (2) Balance Transfer transaction fees.
The DPR Interest Charge is the Average Daily Balance on Balance Transfers multiplied by (1) the
number of days in the Billing Period and (2) the applicable DPR. The Balance Transfer transaction
fee for a ‘regular’ Balance Transfer or ‘Promotional Balance’ Balance Transfer is disclosed in the
Card Mailer; provided, that SunTrust may from time to time offer You Balance Transfer Promotional
Offers with different Balance Transfer Interest Charges and transaction fees than the Card Mailer
terms. Those different Interest Charges and fees will be disclosed in the Balance Transfer Promotional
Offer. SunTrust will add the Balance Transfer fee to the ‘Balance Transfer’ Balance of Your Account,
unless SunTrust informs You when You make a Balance Transfer that the Balance Transfer amount
and Balance Transfer fee will be added to another category of Balance (e.g., Purchases or Cash
Advances).
Unless SunTrust informs You otherwise, Balance Transfers do not have a Grace Period. When
SunTrust provides You a Balance Transfer check or Balance Transfer request form or when You
request a Balance Transfer, SunTrust will charge the Interest Charge on Your Balance Transfer from
the date it is posted to Your Account.
The DPR for Balance Transfers (that are subject to Interest Charges) may or may not vary each month

based on changes in the Index Rate. The Car
Variable or a Non-variable APR.
Interest Charge for
Promotional Balances

Cost: Intere
Balances x

SunTrust may from time to time offer You a
Transfers through Promotional Offers. If You
Balance will be subject to the terms of that sp
Promotional Balance program, any new or diffe
(such as the APR, effective dates and other spe

The DPR Interest Charge is the Average Daily
number of days in the Billing Period and (2) the

The Promotional Rate will apply to those
Termination Date. A Promotional Balance wil
Promotional Rate.

After the Termination Date, Your Promotional R
disclosed otherwise in the Promotional Offer.
Triggering Event, SunTrust will change the DP
Balances to the Purchase DPR and corresp
required by applicable law.

Minimum Interest Charge

If You incur Interest Charges in any Billing Perio
(such minimum Interest Charge shown as the “
incur Interest Charges in any Billing Period,
amount disclosed in the Card Mailer. SunTrust
various Balances in the manner that SunTrust

Foreign Currency Exchange

All Purchase and Cash Advance transactions p
dollars under the regulations of the Card Asso
exchange rate that the Card Association uses to
either from the range of rates available in the w
date (which rate may vary from the rate the
mandated rate in effect on the applicable proces

Conversion may occur on a date other than the d
to Your Statement, which may affect the conve
has a processing date different than the original
greater/less than that of the original transaction.

SunTrust will assess a foreign currency trans
a foreign currency. The foreign currency trans
calculated after each Purchase transaction has
Other Charges

Late Payment Fee. Unless Your Account is
received at least the Minimum Payment by i
add a Late Payment fee to Your Purchase B
the Closing Date for the Statement. The Lat

Annual Fee. If Your Account has an annual
will add the annual fee to Your Purchase Bal
SunTrust will provide You with notice of that
how You may terminate Credit availability un
If You do not terminate the Account, the term

Returned Payment Fee. Unless Your Accou
will add a Returned Payment fee to Your Pur
thorize is returned to SunTrust unpaid (for exa
Trust is returned for insufficient funds or is ret
for any reason); or (2) any Balance Transfe
dishonored for any reason. This fee may be i
and paid by Your financial institution. The Re

Stop Payment Fee. SunTrust will add a $3
You ask SunTrust to stop payment on any Co
Balance Transfer request.

Documentation Fee. SunTrust will provide
copies of more than two Items during a Billin
Balance up to $5.00 for each additional copy
impose any fee if Your request is made in con

Phone Pay Fee. From time to time, You ma
pedited Account payment from a designated
to Your Account as of the day of Your call (
the applicable cut-off time for payments). If S
You agree that SunTrust will add the phone
Purchase Balance.

ich Interest Charges and transaction fees
ther the transaction is a Purchase, Cash
vance, Balance Transfer, or Promotion-

Daily Balance (including new transactions)
alculating Interest Charges. Compounded
t You owe and interest then applied each
new charges.

in the Card Mailer.

(Average Daily Balance for Purchases x
od x DPR)

Statement will incur an Interest Charge on
DPR Interest Charge, when it applies) is the
e number of days in the Billing Period and

are reflected for the first time on Your current
ng Period. Those new Purchases will not be
ected in the current Statement if You satisfy

able because of the Grace Period) on Your

ges) may or may not vary each month based
whether the Account is subject to a Variable

e (Average Daily Balance for Cash
Billing Period x DPR) + Cash Advance

uted at the applicable DPR on the Average
e transaction fees.

e on Cash Advances multiplied by (1) the
DPR. The Cash Advance transaction fee is

nth based on changes in the Index Rate. The
Variable or a Non-variable APR.

vances from the date they are posted to Your

e (Average Daily Balance for Overdraft
Billing Period x DPR)

s the Average Daily Balance on Overdraft
ing Period and (2) the applicable DPR. In
counts, SunTrust will assess You its usual
t of Your deposit account fees.

each month based on changes in the Index
ubject to a Variable or a Non-variable APR.

ft Advances from the date they are posted to
Period.

ge (Average Daily Balance for Balance
Billing Period x DPR) + Balance Transfer

puted at the applicable DPR on the Average
ansfer transaction fees.

on Balance Transfers multiplied by (1) the
le DPR. The Balance Transfer transaction
ance’ Balance Transfer is disclosed in the
e offer You Balance Transfer Promotional
and transaction fees than the Card Mailer
closed in the Balance Transfer Promotional
alance Transfer’ Balance of Your Account,
Transfer that the Balance Transfer amount
gory of Balance (e.g., Purchases or Cash

fers do not have a Grace Period. When
alance Transfer request form or when You
est Charge on Your Balance Transfer from

t Charges) may or may not vary each month

based on changes in the Index Rate. The Card Mailer discloses whether the Account is subject to a
Variable or a Non-variable APR.
Interest Charge for
Promotional Balances

Cost: Interest Charge (Average Daily Balance for Promotional
Balances x no. days in Billing Period x Promotional Rate DPR)

SunTrust may from time to time offer You a Promotional Rate on certain Purchases or Balance
Transfers through Promotional Offers. If You accept a Promotional Offer, the resulting Promotional
Balance will be subject to the terms of that specific Promotional Offer and this Agreement. In each
Promotional Balance program, any new or different terms of the program not disclosed in this Agreement
(such as the APR, effective dates and other special terms) will be detailed in the Promotional Offer.
The DPR Interest Charge is the Average Daily Balance on Promotional Balances multiplied by (1) the
number of days in the Billing Period and (2) the applicable DPR.
The Promotional Rate will apply to those Promotional Balances until the Promotional Offer
Termination Date. A Promotional Balance will not, after the Termination Date, be eligible for another
Promotional Rate.
After the Termination Date, Your Promotional Rate will change to Your regular Purchases DPR, unless
disclosed otherwise in the Promotional Offer. If the reason for the Termination Date is a Delinquency
Triggering Event, SunTrust will change the DPR that applies to Your new and outstanding Promotional
Balances to the Purchase DPR and corresponding APR, after SunTrust provides You any notice
required by applicable law.

Minimum Interest Charge
If You incur Interest Charges in any Billing Period, a minimum Interest Charge will post to Your Account
(such minimum Interest Charge shown as the “Minimum Interest Charge” on Your Statement). If You
incur Interest Charges in any Billing Period, the Minimum Interest Charge will be no less than the
amount disclosed in the Card Mailer. SunTrust may allocate the Minimum Interest Charge among Your
various Balances in the manner that SunTrust elects as permitted by applicable law.

Foreign Currency Exchange Fee for Non-US Transactions
All Purchase and Cash Advance transactions processed in a foreign currency will be converted to U.S.
dollars under the regulations of the Card Association before being charged to Your Account. (The
exchange rate that the Card Association uses to convert currency is a rate the Card Association selects
either from the range of rates available in the wholesale currency markets for the applicable processing
date (which rate may vary from the rate the Card Association itself receives) or the governmentmandated rate in effect on the applicable processing date.)
Conversion may occur on a date other than the date of the transaction or the date the transaction is posted
to Your Statement, which may affect the conversion rate used. If a Credit transaction is processed and
has a processing date different than the original transaction, then the exchange rate of the Credit can be
greater/less than that of the original transaction.
SunTrust will assess a foreign currency transaction fee for all Purchase transactions processed in
a foreign currency. The foreign currency transaction fee is disclosed in the Card Mailer and will be
calculated after each Purchase transaction has been converted from a foreign currency.
Other Charges
Late Payment Fee. Unless Your Account is exempt from Late Payment fees, if SunTrust has not
received at least the Minimum Payment by its Due Date as shown on a Statement, SunTrust will
add a Late Payment fee to Your Purchase Balance based on the New Balance outstanding as of
the Closing Date for the Statement. The Late Payment fee is stated on the Card Mailer.
Annual Fee. If Your Account has an annual fee, it will be shown on the Card Mailer, and SunTrust
will add the annual fee to Your Purchase Balance. If an annual fee is applicable to Your Account,
SunTrust will provide You with notice of that annual fee in the manner required by law and explain
how You may terminate Credit availability under the Account to avoid paying any such annual fee.
If You do not terminate the Account, the terms disclosed will continue to apply.
Returned Payment Fee. Unless Your Account is exempt from Returned Payment fees, SunTrust
will add a Returned Payment fee to Your Purchase Balance if (1) a payment that You make or authorize is returned to SunTrust unpaid (for example, if a check or an electronic funds transfer to SunTrust is returned for insufficient funds or is returned because it is not signed or cannot be processed
for any reason); or (2) any Balance Transfer, Cash Advance, or Promotional Balance check is
dishonored for any reason. This fee may be imposed even if Your payment is later re-presented to
and paid by Your financial institution. The Returned Payment fee is stated on the Card Mailer.
Stop Payment Fee. SunTrust will add a $39.00 stop payment fee to Your Purchase Balance if
You ask SunTrust to stop payment on any Convenience Check drawn on Your Account or on any
Balance Transfer request.
Documentation Fee. SunTrust will provide copies of Items to You upon request. If You request
copies of more than two Items during a Billing Period, SunTrust will add a fee to Your Purchase
Balance up to $5.00 for each additional copy unless prohibited by applicable law. SunTrust will not
impose any fee if Your request is made in connection with written notice of a billing error.
Phone Pay Fee. From time to time, You may request that SunTrust assist You in making an expedited Account payment from a designated deposit account, so that the payment can be credited
to Your Account as of the day of Your call (or on the following business day, for calls made after
the applicable cut-off time for payments). If SunTrust agrees to do so and applicable law allows,
You agree that SunTrust will add the phone pay fee disclosed at the time of Your request to Your
Purchase Balance.

Overdraft Protection

If You elect to link Your SunTrust eligible Con
Market Savings Account to this SunTrust Credit
funds will be transferred from Your Credit Card A
Account when checks, bill pay, or other debit tra
overdrawn if those transactions are paid.

Transfers will be made in $100 increments from
These transfers shall be considered a “Cash Ad
Account Agreement. Fees and interest rates fo
Card Account Agreement and may be higher th
There is no Grace Period for Cash Advance
the Cash Advance is posted to Your Credit C
Card Account (i.e. Credit Limit or the available
overdraft, we may make transfers to pay individu
Your Credit Card Account. For example, if You
or other debit item for $80.00 is presented for pay
be overdrawn, a transfer of $100 will be made fr
and an overdraft protection Cash Advance of $
additional Overdraft Protection transfer fee to Yo
as disclosed in the Personal Deposit Accounts F

Be advised that we reserve the right to not initia
item(s) for non-sufficient funds. By way of examp
or advance funds as a Cash Advance under the
Your Credit Card Account Agreement; (ii) if
available Credit for a given transaction; (iii) if Y
due to fraud); (iv) if You fail to make a Credit C
any Credit Card limit on Your Credit Card Acc
fee for each debited item will be charged to the
Deposit Accounts Fee Schedule.

Overdraft protection is only available for active
deposit account to a Credit Card does not a
overdraft protection will not cancel a Credit Card

A Cash Advance transfer to the Protected Acc
Credit Card. Canceling overdraft protection will
Card Account will cancel the overdraft protectio

Payments

What You Pay, When, How, and what happe

SunTrust will send Your Statement to the addre
all Authorized Charges on the Statement. You
on each Statement or paying in installments th
shown on Your Statement.

In either case, the payment Due Date will be a
Payment will include any amount past due or ov
of the New Balance, or (3) 1% of the New Balan
The Minimum Payment amount will either be
Balance is less than $25.00, the Minimum Paym
Minimum Payment, You still must make the Mi
have fully paid what You owe.

You must pay in U.S. dollars, without restrictive
Instructions. You must contact SunTrust at le
scheduled, if You want to stop payment on the a

If You do not pay at least the Minimum Payment
fee, unless Your Account is exempt from Late P
in Default and You may be subject to rate increa
require that the entire full Balance on Your Acco
SunTrust the entire full Balance due when requ
Provision of this Agreement, You will be liable
including reasonable attorneys’ fees and expens
law. Where required by state law SunTrust wi
Default in accordance with that law. SunTrust’s
or after You have exceeded Your Credit Limit
payment of Your entire full Balance.
How SunTrust will apply payments

You agree that the Minimum Payments on You
in accordance with applicable law. SunTrust
starting with the lowest APR. Payments in exce
first to Balances with the highest APR and any
order based on their APRs, unless SunTrust is
application method in connection with a deferr
applied to restore Your available Credit (the amo
in restoring Your available Credit until SunTrust
insufficient funds or for some other reason.

scloses whether the Account is subject to a

(Average Daily Balance for Promotional
Billing Period x Promotional Rate DPR)

al Rate on certain Purchases or Balance
romotional Offer, the resulting Promotional
otional Offer and this Agreement. In each
f the program not disclosed in this Agreement
will be detailed in the Promotional Offer.

n Promotional Balances multiplied by (1) the
DPR.

al Balances until the Promotional Offer
he Termination Date, be eligible for another

ange to Your regular Purchases DPR, unless
n for the Termination Date is a Delinquency
es to Your new and outstanding Promotional
R, after SunTrust provides You any notice

um Interest Charge will post to Your Account
nterest Charge” on Your Statement). If You
um Interest Charge will be no less than the
e the Minimum Interest Charge among Your
rmitted by applicable law.

r Non-US Transactions

n a foreign currency will be converted to U.S.
fore being charged to Your Account. (The
rrency is a rate the Card Association selects
rrency markets for the applicable processing
ciation itself receives) or the government-

ansaction or the date the transaction is posted
sed. If a Credit transaction is processed and
then the exchange rate of the Credit can be

for all Purchase transactions processed in
s disclosed in the Card Mailer and will be
erted from a foreign currency.

m Late Payment fees, if SunTrust has not
e as shown on a Statement, SunTrust will
sed on the New Balance outstanding as of
fee is stated on the Card Mailer.

e shown on the Card Mailer, and SunTrust
annual fee is applicable to Your Account,
in the manner required by law and explain
ount to avoid paying any such annual fee.
will continue to apply.

pt from Returned Payment fees, SunTrust
ance if (1) a payment that You make or auheck or an electronic funds transfer to Sunuse it is not signed or cannot be processed
vance, or Promotional Balance check is
en if Your payment is later re-presented to
ment fee is stated on the Card Mailer.

ayment fee to Your Purchase Balance if
Check drawn on Your Account or on any

tems to You upon request. If You request
SunTrust will add a fee to Your Purchase
ibited by applicable law. SunTrust will not
h written notice of a billing error.

hat SunTrust assist You in making an excount, so that the payment can be credited
ollowing business day, for calls made after
grees to do so and applicable law allows,
closed at the time of Your request to Your

Overdraft Protection
If You elect to link Your SunTrust eligible Consumer Checking Account, Savings Account or Money
Market Savings Account to this SunTrust Credit Card for overdraft protection (the “Protected Account”),
funds will be transferred from Your Credit Card Account (the “Protector Account”) into Your Protected
Account when checks, bill pay, or other debit transactions would cause Your Protected Account to be
overdrawn if those transactions are paid.
Transfers will be made in $100 increments from the Protector Account to Your Protected Account.
These transfers shall be considered a “Cash Advance” as that term is defined under Your Credit Card
Account Agreement. Fees and interest rates for Cash Advances are disclosed to clients in their Credit
Card Account Agreement and may be higher than those associated with other Credit Card transactions.
There is no Grace Period for Cash Advances, meaning finance charges will accrue from the date
the Cash Advance is posted to Your Credit Card Account. If the available Credit on Your Credit
Card Account (i.e. Credit Limit or the available Cash Advance limit) is insufficient to cover the entire
overdraft, we may make transfers to pay individual debit Items up to the available accessible Credit on
Your Credit Card Account. For example, if Your deposit account has a Balance of $10.00 and a check
or other debit item for $80.00 is presented for payment, which if paid would cause Your deposit account to
be overdrawn, a transfer of $100 will be made from Your Credit Card Account to Your deposit account
and an overdraft protection Cash Advance of $100 will post to this Account. We will also charge an
additional Overdraft Protection transfer fee to Your Protected Account for each day a transfer is made,
as disclosed in the Personal Deposit Accounts Fee Schedule.
Be advised that we reserve the right to not initiate transfers to cover overdrafts and to return the debit
item(s) for non-sufficient funds. By way of example only, we ordinarily will not initiate an overdraft transfer
or advance funds as a Cash Advance under the following circumstances: (i) if You are in Default under
Your Credit Card Account Agreement; (ii) if the Cash Advance would cause You to exceed the
available Credit for a given transaction; (iii) if Your Credit Card is in a closed or blocked status (e.g.
due to fraud); (iv) if You fail to make a Credit Card payment by its Due Date; and/or (v) if You exceed
any Credit Card limit on Your Credit Card Account. In these instances, an overdraft or returned item
fee for each debited item will be charged to the Protected Account, which is disclosed in the Personal
Deposit Accounts Fee Schedule.
Overdraft protection is only available for active Credit Card Accounts, but be advised that linking a
deposit account to a Credit Card does not automatically activate that Card. Conversely, canceling
overdraft protection will not cancel a Credit Card.
A Cash Advance transfer to the Protected Account due to overdraft protection will not activate Your
Credit Card. Canceling overdraft protection will not close Your Credit Card. However, closing a Credit
Card Account will cancel the overdraft protection service.

Payments
What You Pay, When, How, and what happens if You pay late
SunTrust will send Your Statement to the address that the Bank has on file for You. You agree to pay
all Authorized Charges on the Statement. You have the option of paying in full the New Balance shown
on each Statement or paying in installments that at least equal the amount of the Minimum Payment
shown on Your Statement.
In either case, the payment Due Date will be at least 25 days after the Closing Date. The Minimum
Payment will include any amount past due or over the Credit Limit plus the greater of (1) $25.00, (2) 2%
of the New Balance, or (3) 1% of the New Balance plus current Interest Charges and Other Charges.
The Minimum Payment amount will either be rounded up or down to the nearest dollar. If the New
Balance is less than $25.00, the Minimum Payment will be the New Balance. If You pay more than the
Minimum Payment, You still must make the Minimum Payment on subsequent Statements until You
have fully paid what You owe.
You must pay in U.S. dollars, without restrictive terms, and in accordance with the Standard Payment
Instructions. You must contact SunTrust at least 3 business days before an automated payment is
scheduled, if You want to stop payment on the amount You think is wrong.
If You do not pay at least the Minimum Payment by the Due Date, SunTrust will charge a Late Payment
fee, unless Your Account is exempt from Late Payment fees. If You make a Late Payment, You will be
in Default and You may be subject to rate increases. If You are in Default for any reason, SunTrust can
require that the entire full Balance on Your Account be immediately paid. If You do not immediately pay
SunTrust the entire full Balance due when required, except as specifically addressed in the Arbitration
Provision of this Agreement, You will be liable to SunTrust for collection costs that SunTrust incurs,
including reasonable attorneys’ fees and expenses of legal actions to the extent permitted by applicable
law. Where required by state law SunTrust will provide You with notice and a right to remedy Your
Default in accordance with that law. SunTrust’s acceptance of a payment after the payment Due Date
or after You have exceeded Your Credit Limit does not waive SunTrust’s right to require immediate
payment of Your entire full Balance.
How SunTrust will apply payments
You agree that the Minimum Payments on Your Account will be applied in the order SunTrust selects
in accordance with applicable law. SunTrust may allocate Your Minimum Payments to Balances
starting with the lowest APR. Payments in excess of the Minimum Payment will generally be applied
first to Balances with the highest APR and any remaining portion to the other Balances in descending
order based on their APRs, unless SunTrust is required by applicable law to use a different payment
application method in connection with a deferred interest or similar program. Payments are normally
applied to restore Your available Credit (the amount of Your unused Credit Limit). There may be a delay
in restoring Your available Credit until SunTrust determines whether a payment is likely to be returned for
insufficient funds or for some other reason.

Amendment (Changes) and Assignment

IMPORTANT NOTICE: In accordance with appli
Other Charges, and other terms of this Agreem
and the addition of new provisions, including no
provisions relating to SunTrust’s enforcement ri
will send You notice in the manner and method
and time required by law for the changes being m
version of the Agreement is available at https:
CreditCards. Changes to this Agreement will be
provides an updated Agreement, except as othe
provides. You are bound by changes to this Agr
use of Your Account is not necessary for a ch
reject a change in terms and pay off Your Acc
and conditions as then in effect, as described i
or suspend Your ability to use the Account if
applicable law and as described in any change in
Assignment Rights

SunTrust has the right to Assign its rights und
owe to SunTrust. SunTrust may Assign its rig
The rights and benefits of SunTrust under the
to SunTrust’s successors and assigns, includin
through a merger with SunTrust. You do not ha
Agreement or the Account.
Additional Information

Your liability for unauthorized use of the Ca

To report a lost/stolen Card call: 1-800-477-9
You must notify the Bank promptly in the even
notification responsibility means that You should
post to Your Account to confirm that unauthoriz

You may be liable for the unauthorized use of Y
You agree to cooperate with SunTrust and law
user. However, You will not be liable for unautho
in writing of the loss, theft, or possible unauthoriz
each occurrence of loss or theft or any lesser am
the Card Association. You may write to SunTru
FL 32862-1569.
Ownership of the Card

Your Card and any Convenience Checks or oth
You are SunTrust’s property and must be return
demand. At SunTrust’s request You will destroy
special checks, by cutting them in half and surren
mailing them to SunTrust or dropping them off a

Credit Limits, Authorization, and Convenie

Unless Your Account type or SunTrust permi
exceed the Credit Limit that SunTrust establis
Credit Limit amount as part of Your next Mi
Credit Limit at SunTrust’s discretion, as perm
for decreases that affect Your Credit Limit or s
the Credit Limit of a joint Account. If You were
was less than 21 years of age when Your Accou
years of age when SunTrust considers raising th
increase the Credit Limit until all of You approve
Credit Limit of the joint Account. SunTrust ma
Credit Limit available for Cash Advances or B
for any transaction at any time. SunTrust is n
regardless of SunTrust’s reason. All transaction
Your Account status, available Credit, credit hi
of any Card transaction.

SunTrust may reject and return unpaid any Co
must pay SunTrust for any Convenience Chec
to reject and return the Convenience Check, un
use. SunTrust may refuse to issue Convenien
use of Convenience Checks already issued. Yo
payment on an unpaid Convenience Check.
provide SunTrust the date, amount, name of p
any information You provide is incorrect or if You
on Your request, SunTrust may not be able to
paid, SunTrust will not be able to reverse the pa
6 months. You must renew Your request befor
the stop payment request after the initial 6 mon
SunTrust from any losses, expenses and cos
preventing or failing to prevent payment.

ecking Account, Savings Account or Money
erdraft protection (the “Protected Account”),
e “Protector Account”) into Your Protected
would cause Your Protected Account to be

ctor Account to Your Protected Account.
that term is defined under Your Credit Card
ances are disclosed to clients in their Credit
sociated with other Credit Card transactions.
finance charges will accrue from the date
unt. If the available Credit on Your Credit
vance limit) is insufficient to cover the entire
ms up to the available accessible Credit on
ccount has a Balance of $10.00 and a check
h if paid would cause Your deposit account to
redit Card Account to Your deposit account
st to this Account. We will also charge an
ed Account for each day a transfer is made,
e.

s to cover overdrafts and to return the debit
ordinarily will not initiate an overdraft transfer
circumstances: (i) if You are in Default under
Advance would cause You to exceed the
Card is in a closed or blocked status (e.g.
nt by its Due Date; and/or (v) if You exceed
ese instances, an overdraft or returned item
Account, which is disclosed in the Personal

rd Accounts, but be advised that linking a
y activate that Card. Conversely, canceling

to overdraft protection will not activate Your
Your Credit Card. However, closing a Credit

pay late

Bank has on file for You. You agree to pay
ption of paying in full the New Balance shown
equal the amount of the Minimum Payment

ays after the Closing Date. The Minimum
it Limit plus the greater of (1) $25.00, (2) 2%
rrent Interest Charges and Other Charges.
p or down to the nearest dollar. If the New
the New Balance. If You pay more than the
yment on subsequent Statements until You

in accordance with the Standard Payment
ness days before an automated payment is
think is wrong.

Date, SunTrust will charge a Late Payment
es. If You make a Late Payment, You will be
are in Default for any reason, SunTrust can
mediately paid. If You do not immediately pay
pt as specifically addressed in the Arbitration
st for collection costs that SunTrust incurs,
actions to the extent permitted by applicable
You with notice and a right to remedy Your
e of a payment after the payment Due Date
waive SunTrust’s right to require immediate

will be applied in the order SunTrust selects
te Your Minimum Payments to Balances
Minimum Payment will generally be applied
portion to the other Balances in descending
by applicable law to use a different payment
or similar program. Payments are normally
unused Credit Limit). There may be a delay
whether a payment is likely to be returned for

Amendment (Changes) and Assignment
IMPORTANT NOTICE: In accordance with applicable law, SunTrust may unilaterally change the APRs,
Other Charges, and other terms of this Agreement at any time. This includes modifications, deletions
and the addition of new provisions, including non-financial provisions (for example, SunTrust may add
provisions relating to SunTrust’s enforcement rights or the resolution of claims and disputes). SunTrust
will send You notice in the manner and method (written communication or update to online Agreement)
and time required by law for the changes being made to Your Account and/or this Agreement. The online
version of the Agreement is available at https://www.suntrust.com/PersonalBanking/EverydayBanking/
CreditCards. Changes to this Agreement will be automatically effective on the date SunTrust specifies or
provides an updated Agreement, except as otherwise provided in any change in terms notice SunTrust
provides. You are bound by changes to this Agreement as of the date updates are published. However,
use of Your Account is not necessary for a change in terms to be effective. You will have the right to
reject a change in terms and pay off Your Account in the same manner and under the same terms
and conditions as then in effect, as described in any change in terms notice. SunTrust may terminate
or suspend Your ability to use the Account if You reject certain changes, to the extent permitted by
applicable law and as described in any change in terms notice that SunTrust provides.
Assignment Rights
SunTrust has the right to Assign its rights under this Agreement, the Account, and any amount You
owe to SunTrust. SunTrust may Assign its rights without my consent and without prior notice to me.
The rights and benefits of SunTrust under the Agreement and Account shall automatically transfer
to SunTrust’s successors and assigns, including any entity that acquires SunTrust and/or is created
through a merger with SunTrust. You do not have the right to assign or transfer Your rights under this
Agreement or the Account.
Additional Information
Your liability for unauthorized use of the Card
To report a lost/stolen Card call: 1-800-477-9702. State that You are reporting a lost/stolen Card.
You must notify the Bank promptly in the event of loss, theft, or unauthorized use of Your Card. This
notification responsibility means that You should regularly check Your Statements to review charges that
post to Your Account to confirm that unauthorized charges have not posted to Your Account.
You may be liable for the unauthorized use of Your Card. If unauthorized use of Your Account occurs,
You agree to cooperate with SunTrust and law enforcement authorities in identifying the unauthorized
user. However, You will not be liable for unauthorized use that occurs after You notify SunTrust orally or
in writing of the loss, theft, or possible unauthorized use. In any case, Your liability will not exceed $50 for
each occurrence of loss or theft or any lesser amount required by applicable law or the requirements of
the Card Association. You may write to SunTrust at: Cardholder Services, P.O. Box 621569, Orlando,
FL 32862-1569.
Ownership of the Card
Your Card and any Convenience Checks or other Credit instrument or device that SunTrust provides to
You are SunTrust’s property and must be returned to SunTrust or SunTrust’s agent immediately upon
demand. At SunTrust’s request You will destroy Your Card, other Credit instruments or devices and/or
special checks, by cutting them in half and surrendering those items to SunTrust or SunTrust’s agent by
mailing them to SunTrust or dropping them off at SunTrust’s office.
Credit Limits, Authorization, and Convenience Checks
Unless Your Account type or SunTrust permits You to exceed Your Credit Limit, You agree to not
exceed the Credit Limit that SunTrust establishes for You, but if You do, You agree to pay the over
Credit Limit amount as part of Your next Minimum Payment. SunTrust may raise or lower Your
Credit Limit at SunTrust’s discretion, as permitted by applicable law. SunTrust is not liable to You
for decreases that affect Your Credit Limit or spending limits. Each of You may request an increase to
the Credit Limit of a joint Account. If You were required to have a joint Account because one of You
was less than 21 years of age when Your Account was opened and that individual remains less than 21
years of age when SunTrust considers raising the Credit Limit of Your joint Account, SunTrust will not
increase the Credit Limit until all of You approve and assume in writing joint liability for an increase to the
Credit Limit of the joint Account. SunTrust may establish separate limits that restrict the amount of the
Credit Limit available for Cash Advances or Balance Transfers. SunTrust may decline authorization
for any transaction at any time. SunTrust is not liable for declining authorization for any transaction,
regardless of SunTrust’s reason. All transactions on Your Account are subject to approval based upon
Your Account status, available Credit, credit history and other factors. You may not stop the payment
of any Card transaction.
SunTrust may reject and return unpaid any Convenience Check that You write for any reason. You
must pay SunTrust for any Convenience Check that SunTrust pays, even if SunTrust were permitted
to reject and return the Convenience Check, unless the Convenience Check constitutes unauthorized
use. SunTrust may refuse to issue Convenience Checks or, upon notice to You, refuse to permit the
use of Convenience Checks already issued. You may call SunTrust at 1-800-477-9702 to place a stop
payment on an unpaid Convenience Check. SunTrust will charge the stop payment fee. You must
provide SunTrust the date, amount, name of payee, and the number of the Convenience Check. If
any information You provide is incorrect or if You do not afford SunTrust a reasonable opportunity to act
on Your request, SunTrust may not be able to stop payment. Once a Convenience Check has been
paid, SunTrust will not be able to reverse the payment. Your stop payment request will remain valid for
6 months. You must renew Your request before it expires if You want SunTrust to continue honoring
the stop payment request after the initial 6 month period. You agree to hold harmless and indemnify
SunTrust from any losses, expenses and costs, including attorneys’ fees incurred by SunTrust, for
preventing or failing to prevent payment.

Individual Liability
You, as a Cardholder, are liable for all Credit obtained under Your Account(s), whether obtained by
You, another Cardholder or an Authorized User of the Account. If there is more than one Cardholder
on the Account, each of You is liable, jointly and severally, for all Credit obtained under the Account(s),
regardless of which of You obtains that Credit or benefits from it.
Termination
Either You or SunTrust may terminate this Agreement or suspend Your Credit privileges under this
Agreement at any time, with or without cause. You will not try to make any Purchases or Balance
Transfers or try to obtain any Cash Advances or Overdraft Advances on Your Account after Your
Credit privileges have been terminated or suspended. However, this Agreement will otherwise remain in
full force and effect until You pay all sums due SunTrust.
Applicable Law
Applicable Law. Except as expressly set forth in the Arbitration Provision of this Agreement, this
Agreement and the interpretation and enforcement thereof (including but not limited to the exportation of
interest rates) will be governed by Federal law applicable to SunTrust and to the extent not preempted by
Federal law, the laws of the State of Georgia without regard to its conflicts of law provisions and principles.
If there is any conflict between any of the terms and conditions of this Agreement and applicable Federal
or State law, this Agreement will be considered changed to the extent necessary to comply with the
applicable law. You agree that all terms of this Agreement are material to the determination of interest.
SunTrust accepts this Agreement in its home state, Georgia.
Military Lending Act
The Military Lending Act provides protections for certain members of the Armed Forces and their
dependents (“Covered Borrowers”). The provisions of this section apply to Covered Borrowers under the
Military Lending Act. If you would like more information about whether you are a Covered Borrower and
whether this section applies to you, please contact us at 1-800-848-8372. Statement of MAPR. Federal
law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an Annual Percentage Rate of 36%. This rate must include,
as applicable to the credit transaction or account: (1) the costs associated with credit insurance premiums;
(2) fees for ancillary products sold in connection with the credit transaction; (3) any application fee charged
(other than certain application fees for specified credit transactions or accounts); and (4) any participation
fee charged (other than certain participation fees for a credit card account). Oral Disclosures. In order to
hear important Military Lending Act disclosures and payment information provided in this Note, please call
1-800-848-8372. Applicability of Jury Trial Waiver, Class Action Waiver, and Arbitration Provision. The Jury
Trial Waiver, Class Action Waiver, and Arbitration Provision set forth in this Agreement do not apply to
Covered Borrowers under the Military Lending Act.
Jury Trial Waiver
UNLESS YOU ARE A COVERED BORROWER UNDER THE MILITARY LENDING ACT AND TO
THE EXTENT PERMITTED BY APPLICABLE LAW, FOR ANY MATTERS NOT SUBMITTED TO
ARBITRATION, YOU AND SUNTRUST HEREBY KNOWINGLY, VOLUNTARILY, INTENTIONALLY AND
IRREVOCABLY WAIVE THE RIGHT TO A TRIAL BY JURY IN RESPECT TO ANY LITIGATION ARISING
OUT OF THIS AGREEMENT, RELATING TO THE ACCOUNT, ANY CREDIT TRANSACTION, OR ANY
OTHER DISPUTE OR CONTROVERSY BETWEEN YOU AND SUNTRUST OR ANY OF SUNTRUST’S
EMPLOYEES, OFFICERS, DIRECTORS, PARENTS, CONTROLLING PERSONS, SUBSIDIARIES,
AFFILIATES, SUCCESSORS AND ASSIGNS.
Litigation Class Action Waiver
TO THE EXTENT PERMITTED BY APPLICABLE LAW, FOR ANY MATTERS NOT SUBMITTED TO
ARBITRATION, YOU AND SUNTRUST HEREBY AGREE THAT ANY LITIGATION ARISING OUT
OF THIS AGREEMENT, RELATING TO THE ACCOUNT, ANY CREDIT TRANSACTION, OR ANY
OTHER DISPUTE OR CONTROVERSY BETWEEN YOU AND SUNTRUST OR ANY OF SUNTRUST’S
EMPLOYEES, OFFICERS, DIRECTORS, PARENTS, CONTROLLING PERSONS, SUBSIDIARIES,
AFFILIATES, SUCCESSORS AND ASSIGNS WILL PROCEED ON AN INDIVIDUAL BASIS AND
WILL NOT PROCEED AS PART OF A CLASS ACTION, COLLECTIVE ACTION, PRIVATE ATTORNEY
GENERAL ACTION OR OTHER REPRESENTATIVE ACTION AND YOU AND SUNTRUST HEREBY
KNOWINGLY, VOLUNTARILY, INTENTIONALLY AND IRREVOCABLY WAIVE ANY RIGHT TO
PROCEED IN A CLASS ACTION, COLLECTIVE ACTION, PRIVATE ATTORNEY GENERAL ACTION OR
OTHER REPRESENTATIVE ACTION OR TO SERVE AS A CLASS REPRESENTATIVE.
Other Products and Services
SunTrust will, at Your request, arrange for an overnight courier to deliver additional or replacement Cards
on an expedited basis. The charge assessed by the overnight courier will be added to Your Account
Balance. From time to time, new products, optional services or enhancements (for example, insurance
or Card registration) may be offered on Your Account. SunTrust is not liable for these features, services
and enhancements, when they are the responsibility of a third party provider. You agree to hold SunTrust
harmless from any claims, actions or damages resulting from Your use of any of these features, services
or enhancements, when permitted by applicable law. SunTrust reserves the right to adjust, add, or delete
benefits and services at any time.
Credit Inquiries
You authorize SunTrust to make or have made any credit, employment, and investigative inquiries that
SunTrust deems appropriate related to the extension or collection of Credit under the Account. If You
dispute credit information SunTrust is reporting about You, You may notify SunTrust at Cardholder
Services, Attention: Dispute Department, P.O. Box 620548, Orlando, FL 32862-0548.

Consumer Reporting Agencies (Credit Bu

It is standard banking industry practice and wit
data about customer loan repayment and t
creditors. SunTrust may report information ab
missed payments, or other Defaults on Your A
Sharing of Information

SunTrust may, to the extent and in the mann
about SunTrust’s experiences and transactio
affiliates, and others who may properly receiv
Statement for more details about how Sun
information about You and Your Account. S
Cardholders establish a customer relations
maintain a customer relationship with SunTru
an additional copy of SunTrust’s Privacy State
written request to SunTrust at Cardholder Se
Orlando, FL 32862-1629.
Waiver

SunTrust’s failure to exercise, or SunTrust’s
Agreement for any reason will not mean that S
Severability

The invalidity of any provision of the Agreeme
Entire Agreement

This Agreement, as modified from time to ti
terms that SunTrust will deliver to You (in wri
at https://www.suntrust.com/PersonalBan
entire Agreement between You and SunTrus
between You and SunTrust concerning the s
convenience only and are to be disregarded w
New Jersey Residents

All provisions of this Agreement are valid, enfo
Illegal Transaction

Any financial service that SunTrust provides p
permitted by law in accordance with this Agre
will be deemed an action of Default and/or bre
financial service and/or other related services
paying for a transaction, even if it is not permis
right to sue SunTrust for such illegal use or a
and hold SunTrust harmless from any suits or
from such illegal use.
Emergency Card Replacement and Cash

You and any Authorized User agree and auth
Association, its members, or their respective
Replacement and Emergency Cash Disbursem
Arbitration Provision

READ THIS PROVISION CAREFU
IMPACT ON HOW DISPUTES AND C
OTHER ARE RESOLVED.

YOU HAVE THE RIGHT TO REJECT
FORTH BELOW. If You do not rej
subject to arbitration, neither You n
or a jury decide the Claim; (2) en
to the same extent as in court; (3)
arbitration; or (4) join or consolida
The right to appeal is more limited i
court may be unavailable or limited

Claims Subject to Arbitration. A “C
controversy between You and us (other
below), whether preexisting, present or f
these rules and regulations, any transactio
or these rules and regulations, or our rela
and includes initial claims, counterclaims
local and administrative claims. It includ
rights, fraud and other intentional torts, c
law and equity and includes claims for m
“Claim” also includes disputes concerning
automatic dialing systems, artificial or p
or facsimile machines and alleged violati
other statutes or regulations involving tel
will be resolved by individual (not class o
the terms specified in this arbitration agr

under Your Account(s), whether obtained by
Account. If there is more than one Cardholder
, for all Credit obtained under the Account(s),
from it.

or suspend Your Credit privileges under this
not try to make any Purchases or Balance
draft Advances on Your Account after Your
wever, this Agreement will otherwise remain in

Arbitration Provision of this Agreement, this
f (including but not limited to the exportation of
o SunTrust and to the extent not preempted by
d to its conflicts of law provisions and principles.
ions of this Agreement and applicable Federal
d to the extent necessary to comply with the
nt are material to the determination of interest.
gia.

in members of the Armed Forces and their
section apply to Covered Borrowers under the
bout whether you are a Covered Borrower and
1-800-848-8372. Statement of MAPR. Federal
med Forces and their dependents relating to
sumer credit to a member of the Armed Forces
centage Rate of 36%. This rate must include,
sts associated with credit insurance premiums;
edit transaction; (3) any application fee charged
sactions or accounts); and (4) any participation
dit card account). Oral Disclosures. In order to
nt information provided in this Note, please call
tion Waiver, and Arbitration Provision. The Jury
on set forth in this Agreement do not apply to

ER THE MILITARY LENDING ACT AND TO
OR ANY MATTERS NOT SUBMITTED TO
NGLY, VOLUNTARILY, INTENTIONALLY AND
Y IN RESPECT TO ANY LITIGATION ARISING
UNT, ANY CREDIT TRANSACTION, OR ANY
AND SUNTRUST OR ANY OF SUNTRUST’S
CONTROLLING PERSONS, SUBSIDIARIES,

FOR ANY MATTERS NOT SUBMITTED TO
EE THAT ANY LITIGATION ARISING OUT
NT, ANY CREDIT TRANSACTION, OR ANY
AND SUNTRUST OR ANY OF SUNTRUST’S
CONTROLLING PERSONS, SUBSIDIARIES,
ROCEED ON AN INDIVIDUAL BASIS AND
COLLECTIVE ACTION, PRIVATE ATTORNEY
CTION AND YOU AND SUNTRUST HEREBY
IRREVOCABLY WAIVE ANY RIGHT TO
PRIVATE ATTORNEY GENERAL ACTION OR
A CLASS REPRESENTATIVE.

urier to deliver additional or replacement Cards
rnight courier will be added to Your Account
ces or enhancements (for example, insurance
nTrust is not liable for these features, services
hird party provider. You agree to hold SunTrust
om Your use of any of these features, services
Trust reserves the right to adjust, add, or delete

t, employment, and investigative inquiries that
collection of Credit under the Account. If You
ou, You may notify SunTrust at Cardholder
548, Orlando, FL 32862-0548.

Consumer Reporting Agencies (Credit Bureaus)
It is standard banking industry practice and within federal and state law for SunTrust routinely to provide
data about customer loan repayment and transactions to consumer reporting agencies and other
creditors. SunTrust may report information about Your Account(s) to credit bureaus. Late Payments,
missed payments, or other Defaults on Your Account(s) may be reflected in Your credit report.
Sharing of Information
SunTrust may, to the extent and in the manner permitted by applicable law, communicate information
about SunTrust’s experiences and transactions with You to consumer reporting agencies, SunTrust’s
affiliates, and others who may properly receive that information. You may refer to SunTrust’s Privacy
Statement for more details about how SunTrust collects, uses, retains, discloses, and safeguards
information about You and Your Account. SunTrust’s Privacy Statement is provided when consumer
Cardholders establish a customer relationship with SunTrust, once each year while Cardholders
maintain a customer relationship with SunTrust, and at other times required by law. You may request
an additional copy of SunTrust’s Privacy Statement by calling SunTrust at 1-800-477-9702 or sending a
written request to SunTrust at Cardholder Services, Attention: Customer Service, P.O. Box 621629,
Orlando, FL 32862-1629.
Waiver
SunTrust’s failure to exercise, or SunTrust’s delay in exercising, any of SunTrust’s rights under the
Agreement for any reason will not mean that SunTrust will be unable to exercise those rights later.
Severability
The invalidity of any provision of the Agreement will not affect the validity of any other provision.
Entire Agreement
This Agreement, as modified from time to time in accordance with applicable law by any change in
terms that SunTrust will deliver to You (in writing or via update to Agreement terms that are published
at https://www.suntrust.com/PersonalBanking/EverydayBanking/CreditCards), constitutes the
entire Agreement between You and SunTrust, and supersedes any prior negotiation or understanding
between You and SunTrust concerning the subject matter of this Agreement. Section headings are for
convenience only and are to be disregarded when interpreting this Agreement.
New Jersey Residents
All provisions of this Agreement are valid, enforceable and applicable in New Jersey.
Illegal Transaction
Any financial service that SunTrust provides pursuant to this Agreement may be used for any transaction
permitted by law in accordance with this Agreement. You agree that illegal use of any financial service
will be deemed an action of Default and/or breach of contract and that SunTrust may terminate any such
financial service and/or other related services at SunTrust’s discretion. You will remain responsible for
paying for a transaction, even if it is not permissible. If any illegal use occurs, You also agree to waive any
right to sue SunTrust for such illegal use or any activity directly or indirectly related to it and indemnify
and hold SunTrust harmless from any suits or other legal action or liability, directly or indirectly, resulting
from such illegal use.
Emergency Card Replacement and Cash Disbursement
You and any Authorized User agree and authorize SunTrust to provide Your personal data to the Card
Association, its members, or their respective contractors for the purpose of providing Emergency Card
Replacement and Emergency Cash Disbursement benefits to You on Your Account.
Arbitration Provision
READ THIS PROVISION CAREFULLY AS IT WILL HAVE A SUBSTANTIAL
IMPACT ON HOW DISPUTES AND CLAIMS YOU AND WE HAVE AGAINST EACH
OTHER ARE RESOLVED.
YOU HAVE THE RIGHT TO REJECT THIS ARBITRATION AGREEMENT AS SET
FORTH BELOW. If You do not reject this arbitration agreement, for a Claim
subject to arbitration, neither You nor we will have the right to: (1) have a court
or a jury decide the Claim; (2) engage in information-gathering (discovery)
to the same extent as in court; (3) participate in a class action in court or in
arbitration; or (4) join or consolidate a Claim with claims of any other person.
The right to appeal is more limited in arbitration than in court and other rights in
court may be unavailable or limited in arbitration.
Claims Subject to Arbitration. A “Claim” subject to arbitration is any claim, dispute or
controversy between You and us (other than an Excluded Claim or Proceeding as set forth
below), whether preexisting, present or future, which arises out of or relates to the Account,
these rules and regulations, any transaction conducted with us in connection with the Account
or these rules and regulations, or our relationship. “Claim” has the broadest possible meaning
and includes initial claims, counterclaims, cross-claims, third- party claims and federal, state,
local and administrative claims. It includes disputes based upon contract, tort, consumer
rights, fraud and other intentional torts, constitution, statute, regulation, ordinance, common
law and equity and includes claims for money damages and injunctive or declaratory relief.
“Claim” also includes disputes concerning communications involving telephones, cell phones,
automatic dialing systems, artificial or prerecorded voice messages, text messages, emails
or facsimile machines and alleged violations of the Telephone Consumer Protection Act and
other statutes or regulations involving telemarketing. Upon the demand of You or us, Claim(s)
will be resolved by individual (not class or class-wide) binding arbitration in accordance with
the terms specified in this arbitration agreement.

Special Definition of “We,” “Us” a
agreement, the terms “we,” “us” and “o
rules and regulations, also refer to Su
controlling persons, subsidiaries, affiliates
apply to third parties if You assert a Claim
You assert against us.

Excluded Claim or Proceeding. N
include any dispute or controversy abou
this arbitration agreement or any part the
Waiver set forth below, this sentence, and
paragraph below); all such disputes or co
decide. However, any dispute or controv
the rules and regulations as a whole is fo
the following claims or proceedings will n
individual action brought by You or us in
unless such action is transferred, removed
of any self-help rights, including set-off a
Offset and Security Interest,” or (3) any in
to preventing the other party from usin
request for damages or monetary relief o
any such right, action or litigation shall n
parties to compel arbitration regarding a
this arbitration agreement. Moreover, thi
that are the subject of (a) a class action fi
of this arbitration agreement in which Yo
(however, You and we will continue to
agreement), or (b) a motion to compel ar
date of this arbitration agreement pursua
(however, You and we will continue to
agreement).

Federal Arbitration Act. Notwithstan
rules and regulations, the parties agree
transaction involving interstate commerce
United States Code) (“FAA”) shall govern i
pursuant thereto. To the extent state law
governing Your account relationship with

Arbitration Class Action Waiver. Not
regulations, if either You or we elect to a
right: (a) to participate in a class action, pri
action in court or in arbitration, either as a
or consolidate Claims with claims of any o
conduct any arbitration in violation of this
Waiver does not apply to any lawsuit or a
or federal government agency even when
borrowers including You. This means that
any claim brought by such an agency).

Arbitration Procedures. If You or we
notify the other party in writing. This noti
can be given in papers filed in the lawsui
Bank Legal Department, Attn: General C
Peachtree Street, N.E., 9th Floor, Atlanta,
most recent address for You in our files. An
in a venue reasonably convenient to You.
that are subject to arbitration and the ot
the court which is granted, it will be the re
commence the arbitration proceeding wi
this arbitration agreement and the admi
have opted to litigate a Claim in court, Yo
Claim made by a new party or any Claim
unrelated lawsuit (including a Claim initia
be asserted on a class, representative or
constitute a waiver of any rights under th

The arbitration will be administered by JA
www.jamsadr.com, 1-800-352-5267. The r
to JAMS at the address listed above or v
to serve as administrator, the parties m
are unable to agree, a court shall determ
administrator, without the consent of all
informal policy that is inconsistent with an
agreement. The arbitration will proceed
the administrator’s rules and procedure
arbitration including any expedited proced
this arbitration agreement shall control.

A single arbitrator will be appointed by
otherwise, must be a practicing attorney
judge. The arbitrator will not be bound
would apply in a court, nor by state or
proceedings. The arbitrator will honor
privilege recognized under applicable law
other relief, the arbitrator will follow the

and state law for SunTrust routinely to provide
to consumer reporting agencies and other
ccount(s) to credit bureaus. Late Payments,
may be reflected in Your credit report.

d by applicable law, communicate information
to consumer reporting agencies, SunTrust’s
mation. You may refer to SunTrust’s Privacy
ts, uses, retains, discloses, and safeguards
rivacy Statement is provided when consumer
nTrust, once each year while Cardholders
ther times required by law. You may request
ing SunTrust at 1-800-477-9702 or sending a
ntion: Customer Service, P.O. Box 621629,

xercising, any of SunTrust’s rights under the
l be unable to exercise those rights later.

fect the validity of any other provision.

dance with applicable law by any change in
pdate to Agreement terms that are published
dayBanking/CreditCards), constitutes the
rsedes any prior negotiation or understanding
r of this Agreement. Section headings are for
ting this Agreement.

applicable in New Jersey.

s Agreement may be used for any transaction
agree that illegal use of any financial service
act and that SunTrust may terminate any such
t’s discretion. You will remain responsible for
llegal use occurs, You also agree to waive any
irectly or indirectly related to it and indemnify
action or liability, directly or indirectly, resulting

ent

ust to provide Your personal data to the Card
for the purpose of providing Emergency Card
to You on Your Account.

IT WILL HAVE A SUBSTANTIAL
OU AND WE HAVE AGAINST EACH

RBITRATION AGREEMENT AS SET
arbitration agreement, for a Claim
l have the right to: (1) have a court
information-gathering (discovery)
ate in a class action in court or in
m with claims of any other person.
ion than in court and other rights in
ation.

ct to arbitration is any claim, dispute or
cluded Claim or Proceeding as set forth
ch arises out of or relates to the Account,
ed with us in connection with the Account
Claim” has the broadest possible meaning
ms, third- party claims and federal, state,
es based upon contract, tort, consumer
, statute, regulation, ordinance, common
ages and injunctive or declaratory relief.
cations involving telephones, cell phones,
voice messages, text messages, emails
Telephone Consumer Protection Act and
. Upon the demand of You or us, Claim(s)
e) binding arbitration in accordance with

Special Definition of “We,” “Us” and “Our.” Solely for purposes of this arbitration
agreement, the terms “we,” “us” and “our,” in addition to the meanings set forth in these
rules and regulations, also refer to SunTrust’s employees, officers, directors, parents,
controlling persons, subsidiaries, affiliates, successors and assigns. “We,” “us” and “our” also
apply to third parties if You assert a Claim against such third parties in connection with a Claim
You assert against us.
Excluded Claim or Proceeding. Notwithstanding the foregoing, “Claim” does not
include any dispute or controversy about the validity, enforceability, coverage or scope of
this arbitration agreement or any part thereof (including, without limitation, the Class Action
Waiver set forth below, this sentence, and/or the last sentence of the Survival and Severability
paragraph below); all such disputes or controversies are for a court and not an arbitrator to
decide. However, any dispute or controversy that concerns the validity or enforceability of
the rules and regulations as a whole is for the arbitrator, not a court, to decide. In addition,
the following claims or proceedings will not be subject to this arbitration agreement: (1) any
individual action brought by You or us in small claims court or Your state’s equivalent court,
unless such action is transferred, removed, or appealed to a different court; (2) the exercising
of any self-help rights, including set-off as described in the paragraph below titled “Right of
Offset and Security Interest,” or (3) any individual action in court by one party that is limited
to preventing the other party from using a self- help remedy and that does not involve a
request for damages or monetary relief of any kind. The institution and/or maintenance of
any such right, action or litigation shall not constitute a waiver of the right of either of the
parties to compel arbitration regarding any other dispute subject to arbitration pursuant to
this arbitration agreement. Moreover, this arbitration agreement will not apply to any Claims
that are the subject of (a) a class action filed in court that is pending as of the effective date
of this arbitration agreement in which You are alleged to be a member of the putative class
(however, You and we will continue to be bound by any prior version of this arbitration
agreement), or (b) a motion to compel arbitration filed by us against You before the effective
date of this arbitration agreement pursuant to a prior version of this arbitration agreement
(however, You and we will continue to be bound by any prior version of this arbitration
agreement).
Federal Arbitration Act. Notwithstanding any choice of law or other provision in these
rules and regulations, the parties agree and acknowledge that this agreement evidences a
transaction involving interstate commerce and that the Federal Arbitration Act (Title 9 of the
United States Code) (“FAA”) shall govern its interpretation and enforcement and proceedings
pursuant thereto. To the extent state law is applicable under the FAA, the law of the state
governing Your account relationship with us shall apply.
Arbitration Class Action Waiver. Notwithstanding any other provision of these rules and
regulations, if either You or we elect to arbitrate a Claim, neither You nor we will have the
right: (a) to participate in a class action, private attorney general action or other representative
action in court or in arbitration, either as a class representative or class member; or (b) to join
or consolidate Claims with claims of any other persons. No arbitrator shall have authority to
conduct any arbitration in violation of this provision. (Provided, however, that the Class Action
Waiver does not apply to any lawsuit or administrative proceeding filed against us by a state
or federal government agency even when such agency is seeking relief on behalf of a class of
borrowers including You. This means that we will not have the right to compel arbitration of
any claim brought by such an agency).
Arbitration Procedures. If You or we elect to arbitrate a Claim, the electing party must
notify the other party in writing. This notice can be given after the beginning of a lawsuit and
can be given in papers filed in the lawsuit. Otherwise, Your notice must be sent to SunTrust
Bank Legal Department, Attn: General Counsel- Arbitration Election, Mail Code 0643, 303
Peachtree Street, N.E., 9th Floor, Atlanta, Georgia 30308, and our notice must be sent to the
most recent address for You in our files. Any arbitration hearing that You attend must take place
in a venue reasonably convenient to You. If a party files a lawsuit in court asserting Claim(s)
that are subject to arbitration and the other party files a motion to compel arbitration with
the court which is granted, it will be the responsibility of the party prosecuting the Claim(s) to
commence the arbitration proceeding with an arbitration administrator in accordance with
this arbitration agreement and the administrator’s rules and procedures. Even if all parties
have opted to litigate a Claim in court, You or we may elect arbitration with respect to any
Claim made by a new party or any Claim later asserted by a party in that or any related or
unrelated lawsuit (including a Claim initially asserted on an individual basis but modified to
be asserted on a class, representative or multi-party basis). Nothing in that litigation shall
constitute a waiver of any rights under this arbitration agreement.
The arbitration will be administered by JAMS, 1920 Main Street, Suite 300, Irvine, CA 92614,
www.jamsadr.com, 1-800-352-5267. The rules and forms of JAMS may be obtained by writing
to JAMS at the address listed above or visiting their website. If JAMS is unable or unwilling
to serve as administrator, the parties may agree upon another administrator or, if they
are unable to agree, a court shall determine the administrator. No company may serve as
administrator, without the consent of all parties, if it adopts or has in place any formal or
informal policy that is inconsistent with and purports to override the terms of this arbitration
agreement. The arbitration will proceed in accordance with this arbitration agreement and
the administrator’s rules and procedures in effect at the time of commencement of the
arbitration including any expedited procedures but in the event of a conflict, the provisions of
this arbitration agreement shall control.
A single arbitrator will be appointed by the administrator and, unless You and us agree
otherwise, must be a practicing attorney with ten or more years of experience or a retired
judge. The arbitrator will not be bound by judicial rules of procedure and evidence that
would apply in a court, nor by state or local laws that relate to arbitration provisions or
proceedings. The arbitrator will honor and enforce statutes of limitation and claims of
privilege recognized under applicable law. In determining liability or awarding damages or
other relief, the arbitrator will follow the applicable substantive law, consistent with these

rules and regulations and the FAA, that wo
The arbitrator may award any damages o
applicable law to an individual action b
$75,000 and at Your written request, we w
by the administrator and arbitrator to You
have paid an amount equivalent to the fe
court (whichever is less) in the judicial dis
filing fee for asserting the Claim(s) in court
In addition, the administrator may have a
charged to You by the administrator and a
that we are required to pay by law or the a
for this arbitration agreement to be enforc
attorneys and expert witness fees and cos
regulations, the administrator’s rules or a
reasonable attorneys’ and expert witness
on Claim(s) You assert against us in an in
the extent required under applicable law
arbitrator shall write a brief explanation o
award may be entered by any court having

Survival and Severability. This arbitr
Account and the termination of any relati
these rules and regulations. If any part of t
unenforceable for any reason, the remaind
to these rules and regulations acknowle
essential to the arbitration of any disputes
arbitration agreement. If the Class Action
as to any Claim(s), then the parties’ arbitr
null and void with respect to such Claim(s
or are later brought), subject to the right
Action Waiver. The parties acknowledge a
action be arbitrated; and (b) If a Claim is b
determines that the restrictions in the pa
in this agreement prohibiting the arbitrat
are unenforceable with respect to such C
all appeals have been exhausted), the Cl
in court and any individual Claims seeking
the parties will request that the court st
arbitration award pertaining to individual
Claim for public injunctive relief be arbitra

Effect of Arbitration Award. The arb
parties, except for any right of appeal pro
Claim exceeds $150,000 or involves a req
foreseeably involve a cost or benefit to eith
thirty (30) days after the entry of the awa
arbitrator panel administered by the Ad
aspect of the initial award requested by t
be by majority vote. Reference in this arbi
panel if an appeal of the arbitrator’s decisi
be borne in accordance with the above p
decision of the appeal panel is subject to
arbitration award involving the parties wi
in any dispute involving anyone who is no
award in prior disputes involving other
between the parties to this agreement.

Notice and Cure; Special Payment. P
Claim Notice describing the basis of Your Cl
of the Claim, and a reasonable opportunity
Such a Claim Notice must be sent to us by
Bank Legal Department, Attn: General Cou
Street, N.E., 9th Floor, Atlanta, Georgia 30
can submit a Claim Notice. If (i) You subm
on Your own behalf (and not on behalf o
promptly providing the information we rea
the relief You request; and (iv) the matte
subsequently determines that You were
be entitled to a minimum award of at le
attorneys’ fees and costs to which You wil
Claims You have in a single Claim Notice a
minimum award is a single award that ap
asserted in the arbitration, and multiple a

Right to Reject Arbitration Agreeme
therefore not be subject to being require
arbitration. To reject this arbitration agre
written notice of Your decision so that we
five (45) days of the opening of Your Accou
wish to reject the arbitration agreement
Your name, address, Account name, Accou
to the SunTrust Bank Legal Department, A
0643, Atlanta, GA 30302-4418. This is th
this arbitration agreement and any attemp
person or through any other method or fo

” Solely for purposes of this arbitration
tion to the meanings set forth in these
mployees, officers, directors, parents,
s and assigns. “We,” “us” and “our” also
h third parties in connection with a Claim

nding the foregoing, “Claim” does not
ity, enforceability, coverage or scope of
ding, without limitation, the Class Action
sentence of the Survival and Severability
are for a court and not an arbitrator to
oncerns the validity or enforceability of
rator, not a court, to decide. In addition,
ect to this arbitration agreement: (1) any
ms court or Your state’s equivalent court,
ed to a different court; (2) the exercising
d in the paragraph below titled “Right of
tion in court by one party that is limited
elp remedy and that does not involve a
. The institution and/or maintenance of
te a waiver of the right of either of the
spute subject to arbitration pursuant to
n agreement will not apply to any Claims
t that is pending as of the effective date
ed to be a member of the putative class
by any prior version of this arbitration
ed by us against You before the effective
or version of this arbitration agreement
by any prior version of this arbitration

hoice of law or other provision in these
wledge that this agreement evidences a
he Federal Arbitration Act (Title 9 of the
ation and enforcement and proceedings
ble under the FAA, the law of the state
ply.

ng any other provision of these rules and
Claim, neither You nor we will have the
ey general action or other representative
esentative or class member; or (b) to join
ons. No arbitrator shall have authority to
(Provided, however, that the Class Action
ve proceeding filed against us by a state
cy is seeking relief on behalf of a class of
t have the right to compel arbitration of

bitrate a Claim, the electing party must
iven after the beginning of a lawsuit and
e, Your notice must be sent to SunTrust
bitration Election, Mail Code 0643, 303
308, and our notice must be sent to the
n hearing that You attend must take place
files a lawsuit in court asserting Claim(s)
files a motion to compel arbitration with
y of the party prosecuting the Claim(s) to
ration administrator in accordance with
rules and procedures. Even if all parties
may elect arbitration with respect to any
rted by a party in that or any related or
d on an individual basis but modified to
ty basis). Nothing in that litigation shall
on agreement.

Main Street, Suite 300, Irvine, CA 92614,
orms of JAMS may be obtained by writing
website. If JAMS is unable or unwilling
upon another administrator or, if they
dministrator. No company may serve as
it adopts or has in place any formal or
s to override the terms of this arbitration
nce with this arbitration agreement and
at the time of commencement of the
n the event of a conflict, the provisions of

nistrator and, unless You and us agree
or more years of experience or a retired
rules of procedure and evidence that
that relate to arbitration provisions or
ce statutes of limitation and claims of
mining liability or awarding damages or
e substantive law, consistent with these

rules and regulations and the FAA, that would apply if the matter had been brought in court.
The arbitrator may award any damages or other relief or remedies that would apply under
applicable law to an individual action brought in court. For Claim(s) that total less than
$75,000 and at Your written request, we will pay all filing, hearing and/or other fees charged
by the administrator and arbitrator to You for Claim(s) asserted by You in arbitration after You
have paid an amount equivalent to the fee, if any, for filing such Claim(s) in state or federal
court (whichever is less) in the judicial district in which You reside. If You have already paid a
filing fee for asserting the Claim(s) in court, You will not be required to pay that amount again.
In addition, the administrator may have a procedure whereby You can seek a waiver of fees
charged to You by the administrator and arbitrator. We will always pay any fees or expenses
that we are required to pay by law or the administrator’s rules or that we are required to pay
for this arbitration agreement to be enforced. The arbitrator will have the authority to award
attorneys and expert witness fees and costs to the extent permitted by either these rules and
regulations, the administrator’s rules or applicable law. The arbitrator shall award You Your
reasonable attorneys’ and expert witness fees and costs (a) if and to the extent You prevail
on Claim(s) You assert against us in an individual arbitration commenced by You, or (b) to
the extent required under applicable law for this arbitration agreement to be enforced. The
arbitrator shall write a brief explanation of the grounds for the decision. A judgment on the
award may be entered by any court having jurisdiction.
Survival and Severability. This arbitration agreement shall survive the closing of Your
Account and the termination of any relationship between us, including the termination of
these rules and regulations. If any part of this arbitration agreement is deemed or found to be
unenforceable for any reason, the remainder shall be enforceable, except that: (a) The parties
to these rules and regulations acknowledge that the Class Action Waiver is material and
essential to the arbitration of any disputes between the parties and is non severable from this
arbitration agreement. If the Class Action Waiver is limited, voided or found unenforceable
as to any Claim(s), then the parties’ arbitration agreement (except for this sentence) shall be
null and void with respect to such Claim(s) (but not as to any other Claim(s) that have been
or are later brought), subject to the right to appeal the limitation or invalidation of the Class
Action Waiver. The parties acknowledge and agree that under no circumstances will a class
action be arbitrated; and (b) If a Claim is brought seeking public injunctive relief and a court
determines that the restrictions in the paragraph titled “Class Action Waiver” or elsewhere
in this agreement prohibiting the arbitrator from awarding relief on behalf of third parties
are unenforceable with respect to such Claim (and that determination becomes final after
all appeals have been exhausted), the Claim for public injunctive relief will be determined
in court and any individual Claims seeking monetary relief will be arbitrated. In such a case
the parties will request that the court stay the Claim for public injunctive relief until the
arbitration award pertaining to individual relief has been entered in court. In no event will a
Claim for public injunctive relief be arbitrated.
Effect of Arbitration Award. The arbitrator’s award shall be final and binding on all
parties, except for any right of appeal provided by the FAA. However, if the amount of the
Claim exceeds $150,000 or involves a request for injunctive or declaratory relief that could
foreseeably involve a cost or benefit to either party exceeding $150,000, any party can, within
thirty (30) days after the entry of the award by the arbitrator, appeal the award to a threearbitrator panel administered by the Administrator. The panel shall reconsider anew any
aspect of the initial award requested by the appealing party. The decision of the panel shall
be by majority vote. Reference in this arbitration provision to “the arbitrator” shall mean the
panel if an appeal of the arbitrator’s decision has been taken. The costs of such an appeal will
be borne in accordance with the above paragraph titled “Arbitration Procedures.” Any final
decision of the appeal panel is subject to judicial review only as provided under the FAA. No
arbitration award involving the parties will have any preclusive effect as to issues or claims
in any dispute involving anyone who is not a party to the arbitration, nor will an arbitration
award in prior disputes involving other parties have preclusive effect in an arbitration
between the parties to this agreement.
Notice and Cure; Special Payment. Prior to initiating a Claim, You may give us a written
Claim Notice describing the basis of Your Claim and the amount You would accept in resolution
of the Claim, and a reasonable opportunity, not less than thirty (30) days, to resolve the Claim.
Such a Claim Notice must be sent to us by certified mail, return receipt requested, at SunTrust
Bank Legal Department, Attn: General Counsel- Claim Notice, Mail Code 0643, 303 Peachtree
Street, N.E., 9th Floor, Atlanta, Georgia 30308. This is the sole and only method by which You
can submit a Claim Notice. If (i) You submit a Claim Notice in accordance with this Paragraph
on Your own behalf (and not on behalf of any other party); (ii) You cooperate with us by
promptly providing the information we reasonably request; (iii) we refuse to provide You with
the relief You request; and (iv) the matter then proceeds to arbitration and the arbitrator
subsequently determines that You were entitled to such relief (or greater relief), You will
be entitled to a minimum award of at least $7,500 (not including any arbitration fees and
attorneys’ fees and costs to which You will also be entitled). We encourage You to address all
Claims You have in a single Claim Notice and/or a single arbitration. Accordingly, this $7,500
minimum award is a single award that applies to all Claims You have asserted or could have
asserted in the arbitration, and multiple awards of $7,500 are not contemplated.
Right to Reject Arbitration Agreement. You may reject this arbitration agreement and
therefore not be subject to being required to resolve any claim, dispute or controversy by
arbitration. To reject this arbitration agreement, You and only You personally, must send us
written notice of Your decision so that we receive it at the address listed below within fortyfive (45) days of the opening of Your Account. Such notice must include a statement that You
wish to reject the arbitration agreement section of these rules and regulations along with
Your name, address, Account name, Account number and Your signature and must be mailed
to the SunTrust Bank Legal Department, Attn: Arbitration Rejection, P.O. Box 4418, Mail Code
0643, Atlanta, GA 30302-4418. This is the sole and only method by which You can reject
this arbitration agreement and any attempt to reject this arbitration agreement by any other
person or through any other method or form of notice, including the filing of a lawsuit, will be

ineffective. You agree that Your rejection o
to any other person or entity or be deem
by any person or entity other than You. No
eliminate the obligation of other person
agreement to personally comply with the
Rejection of this arbitration agreement wil
regulations and will not result in any adver
that our business records will be final and
this arbitration agreement in a timely an
provision will apply to You and us a
providing proper and timely notice a
Your Billing Rights

Keep this notice for future use. It informs Y
under the Fair Credit Billing Act.

What to do if You find a mistake on Your S






If You think there is an error on Your St
 SunTrust Bank
Cardholder Services, P.O. Box 620
Attn: Dispute Department
In Your letter, give SunTrust the follow
 Account information: Your name a
 Dollar amount: The amount of the s
 Description of problem: If You think
believe is wrong and why You belie
You must contact SunTrust:
 Within 60 days after the error appea
 At least 3 business days before an
payment on the amount You think i
You must notify SunTrust of any pote
SunTrust is not required to investigate a
in question unless You provide written n

What will happen after SunTrust receives Y










When SunTrust receives Your letter, S
 Within 30 days of receiving Your le
Your letter; SunTrust will also infor
 Within 90 days after receiving Your
to You why SunTrust believes the
While SunTrust investigates whether o
 SunTrust may not (1) attempt to
delinquent on that amount;
 The charge in question may rema
charge You interest on that amount
 While You do not have to pay the a
of Your Balance; and
 SunTrust may apply any unpaid am
After SunTrust finishes the investigatio
 If SunTrust made a mistake, You w
or other fees related to that amount
 If SunTrust does not believe ther
question, along with applicable int
the amount You owe and the date
delinquent if You do not pay the am
If You receive SunTrust’s explanation
SunTrust within 10 days telling SunTr
cannot report You as delinquent with
SunTrust must tell You the name of a
and SunTrust must let those organiza
SunTrust and You.
If SunTrust does not follow all of the r
amount You question even if Your bill is

Your rights If You are dissatisfied with a Pu





If You are dissatisfied with the goods o
and You have tried in good faith to corre
not to pay the remaining amount due on
be true:
 The Purchase must have been ma
mailing address, and the purchase
these conditions applies if Your Pur
to You, or if SunTrust owns the com
 You must have used Your Card fo
from an ATM or with a check that ac
 You must not yet have fully paid for
If all of the criteria above are met an
SunTrust in writing at:
 SunTrust Bank
Cardholder Services, P.O. Box 620
Attn: Dispute Department

if the matter had been brought in court.
ief or remedies that would apply under
court. For Claim(s) that total less than
filing, hearing and/or other fees charged
s) asserted by You in arbitration after You
or filing such Claim(s) in state or federal
ich You reside. If You have already paid a
ot be required to pay that amount again.
e whereby You can seek a waiver of fees
We will always pay any fees or expenses
tor’s rules or that we are required to pay
rbitrator will have the authority to award
xtent permitted by either these rules and
law. The arbitrator shall award You Your
costs (a) if and to the extent You prevail
rbitration commenced by You, or (b) to
bitration agreement to be enforced. The
nds for the decision. A judgment on the
on.

ement shall survive the closing of Your
etween us, including the termination of
tion agreement is deemed or found to be
e enforceable, except that: (a) The parties
he Class Action Waiver is material and
he parties and is non severable from this
limited, voided or found unenforceable
ement (except for this sentence) shall be
as to any other Claim(s) that have been
the limitation or invalidation of the Class
that under no circumstances will a class
eking public injunctive relief and a court
tled “Class Action Waiver” or elsewhere
warding relief on behalf of third parties
that determination becomes final after
blic injunctive relief will be determined
y relief will be arbitrated. In such a case
aim for public injunctive relief until the
been entered in court. In no event will a

award shall be final and binding on all
the FAA. However, if the amount of the
njunctive or declaratory relief that could
xceeding $150,000, any party can, within
arbitrator, appeal the award to a threer. The panel shall reconsider anew any
ng party. The decision of the panel shall
ovision to “the arbitrator” shall mean the
en taken. The costs of such an appeal will
titled “Arbitration Procedures.” Any final
view only as provided under the FAA. No
y preclusive effect as to issues or claims
to the arbitration, nor will an arbitration
ave preclusive effect in an arbitration

tiating a Claim, You may give us a written
he amount You would accept in resolution
han thirty (30) days, to resolve the Claim.
ail, return receipt requested, at SunTrust
m Notice, Mail Code 0643, 303 Peachtree
s the sole and only method by which You
Notice in accordance with this Paragraph
er party); (ii) You cooperate with us by
equest; (iii) we refuse to provide You with
oceeds to arbitration and the arbitrator
o such relief (or greater relief), You will
(not including any arbitration fees and
ntitled). We encourage You to address all
ngle arbitration. Accordingly, this $7,500
Claims You have asserted or could have
7,500 are not contemplated.

ay reject this arbitration agreement and
ve any claim, dispute or controversy by
u and only You personally, must send us
at the address listed below within fortynotice must include a statement that You
these rules and regulations along with
r and Your signature and must be mailed
ation Rejection, P.O. Box 4418, Mail Code
d only method by which You can reject
this arbitration agreement by any other
ce, including the filing of a lawsuit, will be

ineffective. You agree that Your rejection of this arbitration agreement shall not be imputed
to any other person or entity or be deemed to be a rejection of this arbitration agreement
by any person or entity other than You. Nor shall Your rejection of this arbitration agreement
eliminate the obligation of other persons or entities who wish to reject this arbitration
agreement to personally comply with the notice and time requirements of this paragraph.
Rejection of this arbitration agreement will not affect any remaining terms of these rules and
regulations and will not result in any adverse consequence to You or Your Account. You agree
that our business records will be final and conclusive with respect to whether You rejected
this arbitration agreement in a timely and proper fashion. This arbitration agreement
provision will apply to You and us and to Your Account unless You reject it by
providing proper and timely notice as stated herein.
Your Billing Rights
Keep this notice for future use. It informs You about Your rights and SunTrust’s responsibilities
under the Fair Credit Billing Act.
What to do if You find a mistake on Your Statement






If You think there is an error on Your Statement, write SunTrust at:
 SunTrust Bank
Cardholder Services, P.O. Box 620548, Orlando, FL 32862-0548
Attn: Dispute Department
In Your letter, give SunTrust the following information:
 Account information: Your name and Account number
 Dollar amount: The amount of the suspected error
 Description of problem: If You think there is an error on Your Statement, describe what You
believe is wrong and why You believe it is a mistake.
You must contact SunTrust:
 Within 60 days after the error appeared on Your statement.
 At least 3 business days before an automated payment is scheduled, if You want to stop
payment on the amount You think is wrong.
You must notify SunTrust of any potential errors in writing. You may also call SunTrust, but
SunTrust is not required to investigate any potential errors and You may have to pay the amount
in question unless You provide written notice of the suspected error.

What will happen after SunTrust receives Your letter










When SunTrust receives Your letter, SunTrust must do two things:
 Within 30 days of receiving Your letter, SunTrust must inform You that SunTrust received
Your letter; SunTrust will also inform You if SunTrust has already corrected the error.
 Within 90 days after receiving Your letter, SunTrust must either correct the error or explain
to You why SunTrust believes the bill is correct.
While SunTrust investigates whether or not there has been an error:
 SunTrust may not (1) attempt to collect the amount in question or (2) report You as
delinquent on that amount;
 The charge in question may remain on Your Statement, and SunTrust may continue to
charge You interest on that amount;
 While You do not have to pay the amount in question, You are responsible for the remainder
of Your Balance; and
 SunTrust may apply any unpaid amount against Your Credit Limit.
After SunTrust finishes the investigation, one of two things will happen:
 If SunTrust made a mistake, You will not have to pay the amount in question or any interest
or other fees related to that amount; or
 If SunTrust does not believe there was a mistake, You will have to pay the amount in
question, along with applicable interest and fees; SunTrust will send You a statement of
the amount You owe and the date payment is due; and SunTrust may then report You as
delinquent if You do not pay the amount SunTrust states that You owe.
If You receive SunTrust’s explanation but still believe Your bill is wrong, You must write to
SunTrust within 10 days telling SunTrust that You still refuse to pay. If You do so, SunTrust
cannot report You as delinquent without also reporting that You are questioning Your bill.
SunTrust must tell You the name of anyone to whom SunTrust reported You as delinquent,
and SunTrust must let those organizations know when the matter has been settled between
SunTrust and You.
If SunTrust does not follow all of the rules above, You do not have to pay the first $50 of the
amount You question even if Your bill is correct.

Your rights If You are dissatisfied with a Purchase





If You are dissatisfied with the goods or services that You Purchase with Your Card/Account,
and You have tried in good faith to correct the problem with the merchant, You may have the right
not to pay the remaining amount due on the Purchase. To use this right, all of the following must
be true:
 The Purchase must have been made in Your home state or within 100 miles of Your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these conditions applies if Your Purchase was based on an advertisement SunTrust mailed
to You, or if SunTrust owns the company that sold You the goods or services.)
 You must have used Your Card for the Purchase. Purchases made with cash advances
from an ATM or with a check that accesses Your Account do not qualify.
 You must not yet have fully paid for the Purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase, contact
SunTrust in writing at:
 SunTrust Bank
Cardholder Services, P.O. Box 620548, Orlando, FL 32862-0548
Attn: Dispute Department

While SunTrust investigates, the same rules a
SunTrust finishes the investigation, SunTrust w
thinks You owe an amount and You do not pay,
Definitions

Account – The credit card Account(s) SunTrus
and conditions of this Agreement.

Agreement – Your Card Account Agreement wi
these terms and conditions, Your application or
that accompany delivery of Your Card (Card Ma

APR (Annual Percentage Rate) – The cost of
to different Balances on Your Account, such as
Advances. SunTrust uses the applicable APR
Account. The Card Mailer discloses applicable
or Non-Variable APR.

Non-Variable APR – The DPR subject to th
not vary with changes in an Index Rate. The
as of the date Your Account was opened.

Variable APR –The variable APR will be b
discloses the APR for the Variable Rate.
Minimum Payment.

Assign – SunTrust Assigns Your Account and
party any or all of SunTrust’s rights or obligatio
owe SunTrust on the Account. If SunTrust Assig
will have SunTrust’s rights under this Agreemen

Authorized Charges – Any Purchases, Balan
Promotional Balances that You or any Authorize
Charges owing on the Account.

Authorized User – Any person You authorize to
not such use exceeds the limit You authorized o

Average Daily Balance – To get the Average
(including new transactions and deducting paym
the Billing Period; SunTrust adds together all th
then divides by the number of days in the Billing

Balance – Every charge on the Account, includ
fees that SunTrust assesses, falls into a specifi
Transfers, Cash Advances, Overdraft Advances
specific transaction are assigned to the same
foreign transaction fee on a Purchase is assigne
to a given transaction with the Card (like a Retur

Balance Transfer – Credit SunTrust extends
any means (including telephone, Convenience
provides). SunTrust’s policy is not to allow You
with SunTrust or SunTrust’s respective affiliates.
credit card companies or financial institutions to
You request an amount that SunTrust does not a
for less than the amount that You requested or
liable if SunTrust does not approve a requested
requests that are incomplete or illegible will not b
Transfers in the order SunTrust selects. In orde
balances from other credit card companies or fi
should allow up to 8 weeks for Balance Trans
the other accounts and continue to pay the min
statements from those creditors showing that
may not happen until after the transactions ap
solely responsible for any late payments, ongoi
accounts. If You want Your other accounts clos
doing so.

Billing Period – The time interval between the
Period may be less than one month. All Credit
each Billing Period including the first Billing Peri

Card – Your Card is/are the physical Card(s), th
You or an Authorized User can use to access Yo

Card Association – the applicable credit card a
(e.g., Visa® or MasterCard®).

Cardholder – The natural person to whom Su
or a natural person who has agreed to pay ob
or Account.

Card Mailer – the mail that delivers Your Card a
with Your Card Account when SunTrust sends Y

Cash Advance – Credit SunTrust extends to Yo
occurs when You: (1) obtain cash from an ATM (

tration agreement shall not be imputed
a rejection of this arbitration agreement
ur rejection of this arbitration agreement
ties who wish to reject this arbitration
nd time requirements of this paragraph.
t any remaining terms of these rules and
uence to You or Your Account. You agree
ve with respect to whether You rejected
fashion. This arbitration agreement
ur Account unless You reject it by
herein.

Your rights and SunTrust’s responsibilities

write SunTrust at:

o, FL 32862-0548

ion:
t number
rror
error on Your Statement, describe what You
stake.

ur statement.
d payment is scheduled, if You want to stop

in writing. You may also call SunTrust, but
al errors and You may have to pay the amount
e suspected error.

ust do two things:
ust must inform You that SunTrust received
unTrust has already corrected the error.
nTrust must either correct the error or explain
ct.
has been an error:
e amount in question or (2) report You as
Statement, and SunTrust may continue to

estion, You are responsible for the remainder

st Your Credit Limit.
o things will happen:
to pay the amount in question or any interest

mistake, You will have to pay the amount in
ees; SunTrust will send You a statement of
due; and SunTrust may then report You as
rust states that You owe.
elieve Your bill is wrong, You must write to
u still refuse to pay. If You do so, SunTrust
eporting that You are questioning Your bill.
whom SunTrust reported You as delinquent,
when the matter has been settled between

, You do not have to pay the first $50 of the

hat You Purchase with Your Card/Account,
em with the merchant, You may have the right
ase. To use this right, all of the following must

home state or within 100 miles of Your current
have been more than $50. (Note: Neither of
based on an advertisement SunTrust mailed
sold You the goods or services.)
hase. Purchases made with cash advances
ur Account do not qualify.
ase.
still dissatisfied with the purchase, contact

o, FL 32862-0548

While SunTrust investigates, the same rules apply to the disputed amount as discussed above. After
SunTrust finishes the investigation, SunTrust will tell You SunTrust’s decision. At that point, if SunTrust
thinks You owe an amount and You do not pay, SunTrust may report You as delinquent.
Definitions
Account – The credit card Account(s) SunTrust approves for Your use that is/are subject to the terms
and conditions of this Agreement.
Agreement – Your Card Account Agreement with SunTrust for the Account, which contract is made up of
these terms and conditions, Your application or response to SunTrust’s solicitation, and the documents
that accompany delivery of Your Card (Card Mailer).
APR (Annual Percentage Rate) – The cost of Your Credit as a yearly rate. Different APRs may apply
to different Balances on Your Account, such as Your Balance on Purchases or Your Balance on Cash
Advances. SunTrust uses the applicable APR to calculate the Interest Charge that You owe on the
Account. The Card Mailer discloses applicable APRs and whether the Account is subject to a Variable
or Non-Variable APR.
Non-Variable APR – The DPR subject to the Non-Variable Rate will be based on an APR that does
not vary with changes in an Index Rate. The Card Mailer discloses the APR for the Non-Variable Rate
as of the date Your Account was opened.
Variable APR –The variable APR will be based on the Index Rate plus a Margin. The Card Mailer
discloses the APR for the Variable Rate. An increase in the Index Rate may result in a higher
Minimum Payment.
Assign – SunTrust Assigns Your Account and this Agreement if SunTrust sells or transfers to another
party any or all of SunTrust’s rights or obligations under this Agreement, including any amount that You
owe SunTrust on the Account. If SunTrust Assigns Your Account, the party who receives the assignment
will have SunTrust’s rights under this Agreement, subject to the extent of the assignment.
Authorized Charges – Any Purchases, Balance Transfers, Cash Advances, Overdraft Advances, and
Promotional Balances that You or any Authorized User makes on the Account and any fees and Interest
Charges owing on the Account.
Authorized User – Any person You authorize to use the Card (whether Cardholder or not and whether or
not such use exceeds the limit You authorized or intended).
Average Daily Balance – To get the Average Daily Balance, SunTrust adds the outstanding Balance
(including new transactions and deducting payments and credits) for each transaction type for each day in
the Billing Period; SunTrust adds together all the daily Balances for each separate transaction type, and
then divides by the number of days in the Billing Period.
Balance – Every charge on the Account, including transactions that You make and Interest Charges and
fees that SunTrust assesses, falls into a specific Balance, such as the Balance on Purchases, Balance
Transfers, Cash Advances, Overdraft Advances, and Promotional Balances. Fees that are based on a
specific transaction are assigned to the same Balance as the applicable transaction. For example, a
foreign transaction fee on a Purchase is assigned to the Balance on Purchases. Fees that are not specific
to a given transaction with the Card (like a Returned Payment) are assigned to the Balance on Purchases.
Balance Transfer – Credit SunTrust extends resulting from a Balance Transfer that You request by
any means (including telephone, Convenience Check, or Balance Transfer request form that SunTrust
provides). SunTrust’s policy is not to allow You to transfer any Balance You owe from any other account
with SunTrust or SunTrust’s respective affiliates. SunTrust may permit You to transfer balances from other
credit card companies or financial institutions to Your Account up to the amount of Your Credit Limit. If
You request an amount that SunTrust does not approve, SunTrust may process a partial Balance Transfer
for less than the amount that You requested or SunTrust may decline the entire request. SunTrust is not
liable if SunTrust does not approve a requested Balance Transfer (in whole or in part). Balance Transfer
requests that are incomplete or illegible will not be approved. SunTrust reserves the right to make Balance
Transfers in the order SunTrust selects. In order to preserve Your dispute rights, You should not transfer
balances from other credit card companies or financial institutions if those balances are in dispute. You
should allow up to 8 weeks for Balance Transfers to be completed. You should continue to monitor
the other accounts and continue to pay the minimum payment due on those accounts until You receive
statements from those creditors showing that the balances have been paid in full. This confirmation
may not happen until after the transactions appear on the Statement SunTrust sends You. You are
solely responsible for any late payments, ongoing finance charges and disputed amounts on Your other
accounts. If You want Your other accounts closed following a Balance Transfer, You are responsible for
doing so.
Billing Period – The time interval between the dates of Your regular billing Statements. Your first Billing
Period may be less than one month. All Credit terms, including Minimum Interest Charges, will apply in
each Billing Period including the first Billing Period.
Card – Your Card is/are the physical Card(s), the Account number, or any device (such as a check) that
You or an Authorized User can use to access Your Account.
Card Association – the applicable credit card association through which Your Card Account is sponsored
(e.g., Visa® or MasterCard®).
Cardholder – The natural person to whom SunTrust issues a Card at his/her request or application,
or a natural person who has agreed to pay obligations arising from another person’s use of the Card
or Account.
Card Mailer – the mail that delivers Your Card and includes Your Agreement and other terms associated
with Your Card Account when SunTrust sends Your Card to You.
Cash Advance – Credit SunTrust extends to You in the form of a loan from the Account. A Cash Advance
occurs when You: (1) obtain cash from an ATM (automated teller machine), (2) obtain cash from any other

source, (3) make a wire transfer, (4) buy foreign
(7) buy lottery tickets, or (8) buy gambling chips

Cash Advance Credit Limit – The maximum am
and makes available to You on the Account for C
establishes may be less than the Credit Limit tha
Credit Limit is stated on the Card Mailer.

Cash Equivalent Transactions – Transactions
or MasterCard® identifies as a seller of travelers
lottery tickets, funds used for wagers or gamblin
treated as Cash Advances on Your Account.

Closing Date – The last day of a Billing Period.
Convenience Check – A check that the Bank
make a Purchase or a Balance Transfer.

Covered Provider – means any third party tha
Credit if (and only if) You assert a Claim agains
against SunTrust.

Credit – means the credit extension You receive

Credit Limit – Your Credit Limit will appear on e

For Accounts with Spending Limits: Th
from time to time and makes available to Yo

For Accounts with no Pre-Set Spending L
spending. Your Account will be assigned a re
Your Credit Limit that is available for Balanc
to Your assigned Cash Advance Credit Limi
assigned Credit Limit. Each transaction Yo
Account history; (2) credit record; (3) absen
and delinquency patterns. If You attempt to
Limit, Your Account will be evaluated based
Account usage, performance and delinque
and Your ability to pay. In certain circumsta
to authorize a transaction. If You are autho
pay, as part of your Minimum Payment, the
Limit. SunTrust encourages You to provide
high transaction amounts, high velocity, or c

Default – Subject to applicable law and any righ
immediate payment of Your entire Account Balan
the Minimum Payment on or before the paymen
or tries to exceed the Credit Limit without SunT
cannot be processed, (4) SunTrust reasonably
materially impaired (for example, if You becom
an attachment or garnishment proceedings are
SunTrust with false, misleading or fraudulent inf
legally declared incompetent or incapacitated, (7
(8) You or an Authorized User makes illegal use
an Authorized User continues to use an Accoun

Delinquency Triggering Event – A Delinquenc
Payment within 60 days of its payment Due Dat

DPR (Daily Periodic Rate) – the daily periodic
equal to the applicable APR divided by 365 (or
the Interest Charge as described in this Agreem
DPRs will accrue daily and be calculated on th
for each Account feature (Purchases, Cash A
Promotional Balances).

Due Date – This is the date by which SunTrust
Your Due Date will be stated on Your Statemen
It will be at least 21 days after the date SunTrus
of Your most recently concluded Billing Period (
payment on or before the Due Date and by the
Your Statement, Your payment is timely if SunT
provided, however, that if You make a payment d
payment will be credited to Your Account same d
SunTrust’s automated telephone service, with a
site will be subject to the 5:00 pm payment cut-o

Crediting of Payments to Account: Payments
at the mailing address shown on the front of Yo
will be credited to Your Account as of the date
p.m. Eastern Time will be credited as of the nex
personnel at a SunTrust branch after 5 p.m., as
any other location than the address stated in Yo
with no payment coupon enclosed, or that does
payment may be subject to a delay in crediting
result in additional Interest Charges, Other Charg
initiated through SunTrust’s automated telephon
subject to the 5:00 pm payment cut-off time.

disputed amount as discussed above. After
SunTrust’s decision. At that point, if SunTrust
may report You as delinquent.

for Your use that is/are subject to the terms

for the Account, which contract is made up of
o SunTrust’s solicitation, and the documents

t as a yearly rate. Different APRs may apply
nce on Purchases or Your Balance on Cash
te the Interest Charge that You owe on the
whether the Account is subject to a Variable

able Rate will be based on an APR that does
r discloses the APR for the Non-Variable Rate

Index Rate plus a Margin. The Card Mailer
se in the Index Rate may result in a higher

ment if SunTrust sells or transfers to another
is Agreement, including any amount that You
count, the party who receives the assignment
the extent of the assignment.

s, Cash Advances, Overdraft Advances, and
kes on the Account and any fees and Interest

rd (whether Cardholder or not and whether or

nce, SunTrust adds the outstanding Balance
edits) for each transaction type for each day in
nces for each separate transaction type, and

ions that You make and Interest Charges and
such as the Balance on Purchases, Balance
motional Balances. Fees that are based on a
the applicable transaction. For example, a
ance on Purchases. Fees that are not specific
nt) are assigned to the Balance on Purchases.

om a Balance Transfer that You request by
Balance Transfer request form that SunTrust
any Balance You owe from any other account
may permit You to transfer balances from other
unt up to the amount of Your Credit Limit. If
nTrust may process a partial Balance Transfer
ay decline the entire request. SunTrust is not
ansfer (in whole or in part). Balance Transfer
. SunTrust reserves the right to make Balance
e Your dispute rights, You should not transfer
itutions if those balances are in dispute. You
completed. You should continue to monitor
ment due on those accounts until You receive
es have been paid in full. This confirmation
e Statement SunTrust sends You. You are
charges and disputed amounts on Your other
g a Balance Transfer, You are responsible for

ur regular billing Statements. Your first Billing
ding Minimum Interest Charges, will apply in

number, or any device (such as a check) that

hrough which Your Card Account is sponsored

ues a Card at his/her request or application,
ising from another person’s use of the Card

s Your Agreement and other terms associated
You.

m of a loan from the Account. A Cash Advance
teller machine), (2) obtain cash from any other

source, (3) make a wire transfer, (4) buy foreign currency, (5) buy traveler’s checks, (6) buy money orders,
(7) buy lottery tickets, or (8) buy gambling chips or wagers.
Cash Advance Credit Limit – The maximum amount of Credit that SunTrust establishes from time to time
and makes available to You on the Account for Cash Advances. Any Cash Advance Credit Limit SunTrust
establishes may be less than the Credit Limit that otherwise applies to Your Account. The Cash Advance
Credit Limit is stated on the Card Mailer.
Cash Equivalent Transactions – Transactions performed using a merchant or service provider that Visa®
or MasterCard® identifies as a seller of travelers checks, foreign currency, money orders, wire transfers,
lottery tickets, funds used for wagers or gambling, or similar products or services. These transactions are
treated as Cash Advances on Your Account.
Closing Date – The last day of a Billing Period.
Convenience Check – A check that the Bank provides which You may use to access Your Account to
make a Purchase or a Balance Transfer.
Covered Provider – means any third party that provides any product or service in connection with the
Credit if (and only if) You assert a Claim against such third party in connection with a Claim You assert
against SunTrust.
Credit – means the credit extension You receive under this Agreement.
Credit Limit – Your Credit Limit will appear on each monthly Statement.
For Accounts with Spending Limits: The maximum amount of Credit that SunTrust establishes
from time to time and makes available to You on the Account.
For Accounts with no Pre-Set Spending Limits: No pre-set spending limit does not mean unlimited
spending. Your Account will be assigned a revolving Credit Limit. SunTrust may restrict the amount of
Your Credit Limit that is available for Balance Transfers. For Cash Advances, You may only spend up
to Your assigned Cash Advance Credit Limit. For Purchases, You may be authorized to exceed Your
assigned Credit Limit. Each transaction You make is authorized based on factors such as (1) Your
Account history; (2) credit record; (3) absence or presence of suspected fraud; and (4) performance
and delinquency patterns. If You attempt to make a Purchase transaction that exceeds your Credit
Limit, Your Account will be evaluated based upon the length of time Your Account has been open and
Account usage, performance and delinquency patterns with SunTrust or with Your other creditors,
and Your ability to pay. In certain circumstances, SunTrust may ask for additional financial records
to authorize a transaction. If You are authorized to exceed Your Credit Limit, You will be required to
pay, as part of your Minimum Payment, the amount by which Your New Balance exceeds Your Credit
Limit. SunTrust encourages You to provide us with notice of forthcoming unusual activity, such as,
high transaction amounts, high velocity, or changes in geographic patterns.
Default – Subject to applicable law and any right that You may have under that law, SunTrust may require
immediate payment of Your entire Account Balance and You will be in Default if (1) You do not make at least
the Minimum Payment on or before the payment Due Date, (2) a Cardholder or Authorized User exceeds
or tries to exceed the Credit Limit without SunTrust’s permission, (3) A payment You make is rejected or
cannot be processed, (4) SunTrust reasonably believes that a Cardholder’s ability to pay SunTrust is
materially impaired (for example, if You become subject to bankruptcy or insolvency proceedings or if
an attachment or garnishment proceedings are instituted against You or Your property), (5) You provide
SunTrust with false, misleading or fraudulent information or a false signature, (6) a Cardholder dies or is
legally declared incompetent or incapacitated, (7) You fail to comply with any provision of this Agreement,
(8) You or an Authorized User makes illegal use of any financial service under the Account or (9) You or
an Authorized User continues to use an Account or Card that has been closed.
Delinquency Triggering Event – A Delinquency Triggering Event occurs if You fail to make a Minimum
Payment within 60 days of its payment Due Date.

Grace Period – The time period during which Y
stated in the Card Mailer, the Grace Period is at
Agreement defines the kinds of transactions that
Transaction Fees Section). If a particular transa
a Grace Period for that transaction. The Grace
each Billing Period. You will lose the Grace Per
Period. To regain Your Grace Period after You lo
Period. If You lose Your Grace Period for transa
will owe interest on any unpaid Balance. Interes
of the Billing Period for which You failed to pay
make after You lose Your Grace Period, You will
You regain the Grace Period for transactions of

Index Rate – The rate used for making variabl
Prime Rate as quoted in the “Money Rates” sec
28th day (or if the 28th day is not a business da
month. If The Wall Street Journal (Eastern Ed
any of these dates, then the Index Rate will be d
Prime Rate for such date. If the Prime Rate is n
notify You as required by applicable law. Index
commences on or after the first day of the next s
example, if a new Index Rate is published on Jun
of the Billing Period that commences July 1 or a
APR, which may increase Your Minimum Payme

Interest Charge – The cost of Your Credit on t
applying Your DPR to the Average Daily Balance

Items – Statements, sales drafts and/or paymen

Joint Ownership Considerations – If a deposi
owner of BOTH the deposit Account AND the
enroll in overdraft protection without the consen
any owner of either the deposit Account OR
without the consent of other owners. If a jointly o
(i) all deposit Account holders will be responsible
person writes a check or initiates a transaction th
and (ii) all deposit Account holders authorize u
each owner of Protector Account, such as type
the right to cancel, suspend, or change the ter
any time, for any reason.
Late Payment – A payment that You make that

Margin – The rate added to the Index Rate to d

Minimum Payment – The Minimum Payment d

New Balance – The entire Balance of Purc
Transfers and any Promotional Balances outs
accrued Interest Charges and Other Charges as

Other Charges – Charges to Your Account as d
including fees for: Late Payments*, Annual Fee,
and Phone Payments*. *SunTrust will consider
in good standing if circumstances warrant such
mitigating factors.

DPR (Daily Periodic Rate) – the daily periodic rate is calculated from the applicable APR. The DPR is
equal to the applicable APR divided by 365 (or 366 in a leap year). SunTrust may use DPR to calculate
the Interest Charge as described in this Agreement. Interest Charges resulting from the application of
DPRs will accrue daily and be calculated on the Average Daily Balances (including new transactions)
for each Account feature (Purchases, Cash Advances, Balance Transfers, Overdraft Advances, and
Promotional Balances).

Overdraft Advance – Credit SunTrust extends
overdraft on a deposit account that You designa
protection program to receive this form of Credit

Due Date – This is the date by which SunTrust must receive Your payment in order for it to be on time.
Your Due Date will be stated on Your Statement. It will occur on the same calendar day of each month.
It will be at least 21 days after the date SunTrust mails Your Statement and at least 25 days after the end
of Your most recently concluded Billing Period (Closing Date). To be timely, SunTrust must receive Your
payment on or before the Due Date and by the time stated on Your Statement. If no time is stated on
Your Statement, Your payment is timely if SunTrust receives it by 5 p.m. Eastern Time on the Due Date;
provided, however, that if You make a payment directly to SunTrust personnel at a SunTrust branch, Your
payment will be credited to Your Account same day as the day of the payment. Payments initiated through
SunTrust’s automated telephone service, with a customer service representative, or via SunTrust’s web
site will be subject to the 5:00 pm payment cut-off time.

Promotional Rate – The DPR applied to Promo

Crediting of Payments to Account: Payments that SunTrust receives prior to 5:00 p.m. Eastern Time
at the mailing address shown on the front of Your Statement and in the Standard Payment Instructions
will be credited to Your Account as of the date of receipt. Payments that SunTrust receives after 5:00
p.m. Eastern Time will be credited as of the next day, unless You make the payment directly to SunTrust
personnel at a SunTrust branch after 5 p.m., as stated above. If SunTrust accepts a payment received at
any other location than the address stated in Your Statement and in the Standard Payment Instructions,
with no payment coupon enclosed, or that does not conform to the Standard Payment Instructions, that
payment may be subject to a delay in crediting of up to 5 days after the date of receipt. This delay may
result in additional Interest Charges, Other Charges, and possible suspension of Your Account. Payments
initiated through SunTrust’s automated telephone service (if available) or via SunTrust’s web site will be
subject to the 5:00 pm payment cut-off time.

Promotional Balance – Credit SunTrust exten
Balance Transfer transaction, subject to discoun
for Purchases. Your use of a Promotional Offer

Protected Account – An eligible SunTrust Co
Market Savings Account linked to this SunTrust

Protector Account – Your SunTrust Consumer

Purchase – Credit SunTrust extends to You w
Account to purchase goods, labor, insurance or s
or Account for the purpose of completing a Purc
instrument that SunTrust provides for You to ma

Returned Payment – A payment that You ma
have a Returned Payment, SunTrust will assess
SunTrust resubmits a Returned Payment and Y
will still assess a Returned Payment fee because
as unpaid. If Your financial institution returns a
than one Returned Payment fee. If You make a
institution does not honor it, SunTrust will asses

Savings Account – the Savings Account (called
maintain and pledged (via security interest) to S

buy traveler’s checks, (6) buy money orders,

dit that SunTrust establishes from time to time
es. Any Cash Advance Credit Limit SunTrust
applies to Your Account. The Cash Advance

sing a merchant or service provider that Visa®
reign currency, money orders, wire transfers,
products or services. These transactions are

hich You may use to access Your Account to

ny product or service in connection with the
party in connection with a Claim You assert

Agreement.

y Statement.

amount of Credit that SunTrust establishes
count.

re-set spending limit does not mean unlimited
dit Limit. SunTrust may restrict the amount of
For Cash Advances, You may only spend up
ases, You may be authorized to exceed Your
uthorized based on factors such as (1) Your
nce of suspected fraud; and (4) performance
rchase transaction that exceeds your Credit
ngth of time Your Account has been open and
s with SunTrust or with Your other creditors,
rust may ask for additional financial records
eed Your Credit Limit, You will be required to
which Your New Balance exceeds Your Credit
ice of forthcoming unusual activity, such as,
eographic patterns.

ay have under that law, SunTrust may require
will be in Default if (1) You do not make at least
(2) a Cardholder or Authorized User exceeds
ssion, (3) A payment You make is rejected or
at a Cardholder’s ability to pay SunTrust is
bankruptcy or insolvency proceedings or if
gainst You or Your property), (5) You provide
a false signature, (6) a Cardholder dies or is
comply with any provision of this Agreement,
ncial service under the Account or (9) You or
at has been closed.
Event occurs if You fail to make a Minimum

Grace Period – The time period during which You may avoid paying interest on certain transactions. As
stated in the Card Mailer, the Grace Period is at least 25 days after the close of each Billing Period. This
Agreement defines the kinds of transactions that are subject to a Grace Period (See Interest Charges and
Transaction Fees Section). If a particular transaction is subject to a Grace Period, Your Account starts in
a Grace Period for that transaction. The Grace Period will continue if You pay Your New Balance on time
each Billing Period. You will lose the Grace Period if You do not pay Your New Balance in a given Billing
Period. To regain Your Grace Period after You lose it, You must pay Your New Balance on time for 1 Billing
Period. If You lose Your Grace Period for transactions to which the Grace Period previously applied, You
will owe interest on any unpaid Balance. Interest on those transactions will begin to accrue from the end
of the Billing Period for which You failed to pay Your New Balance. For any such transactions that You
make after You lose Your Grace Period, You will pay interest from the Transaction Date until the time that
You regain the Grace Period for transactions of this type.
Index Rate – The rate used for making variable rate adjustments to Your APR. The Index Rate is the
Prime Rate as quoted in the “Money Rates” section of The Wall Street Journal (Eastern Edition) on the
28th day (or if the 28th day is not a business day, the next business day thereafter) of the prior calendar
month. If The Wall Street Journal (Eastern Edition) is not published or the Prime Rate is not given on
any of these dates, then the Index Rate will be determined by using the immediately preceding published
Prime Rate for such date. If the Prime Rate is no longer available, SunTrust will choose a new index and
notify You as required by applicable law. Index Rate changes will be effective on Your Billing Period that
commences on or after the first day of the next succeeding month after the Index Rate is published. (For
example, if a new Index Rate is published on June 28th, the new APR would be effective as of the first day
of the Billing Period that commences July 1 or after). An Index Rate increase will increase the applicable
APR, which may increase Your Minimum Payment.
Interest Charge – The cost of Your Credit on the Account as a dollar amount that SunTrust derives by
applying Your DPR to the Average Daily Balance.
Items – Statements, sales drafts and/or payment instruments.
Joint Ownership Considerations – If a deposit Account (i.e. Protected Account) is jointly owned, any
owner of BOTH the deposit Account AND the Credit Card Account (i.e. the Protector Account) may
enroll in overdraft protection without the consent of the other owners of that deposit Account. However,
any owner of either the deposit Account OR Credit Card Account may cancel overdraft protection
without the consent of other owners. If a jointly owned deposit Account is enrolled in overdraft protection:
(i) all deposit Account holders will be responsible for all overdraft protection advances regardless of which
person writes a check or initiates a transaction that causes an overdraft (e.g. as a debit Card Purchase);
and (ii) all deposit Account holders authorize us to share information about the Protected Account with
each owner of Protector Account, such as type of Account and partial Account number. We reserve
the right to cancel, suspend, or change the terms or conditions of Your overdraft protection service at
any time, for any reason.
Late Payment – A payment that You make that SunTrust does not receive before the Due Date.
Margin – The rate added to the Index Rate to determine Your APR.
Minimum Payment – The Minimum Payment due on Your Account as shown on Your Statement.
New Balance – The entire Balance of Purchases, Cash Advances, Overdraft Advances, Balance
Transfers and any Promotional Balances outstanding on Your Account on the Closing Date, plus all
accrued Interest Charges and Other Charges as of such date.

SunTrust Bank
Cardholder Services
P.O. Box 791278
Baltimore, MD 21279-1278

NOTE: Any disagreement that You may have w
sented to SunTrust in writing separately from yo
payments are sent. (See the “Your Billing Rights

Statement – SunTrust will send You a bill at the
Balance of any amount or a credit Balance of m
is uncollectible or has closed or suspended You
Statement will tell You the total Balance that You
will also tell You the Minimum Payment that You

SunTrust – means (1) SunTrust Bank, the ban
person(s) to whom the Credit is transferred or as
trolling persons, subsidiaries and affiliates of th
predecessors of the companies in (1)-(4) abov
companies in (1)-(5) above. SunTrust may also
Arbitration Provision contained in this Agreement
if You assert a Claim against such third parties in

Termination Date – This is the last day a Prom
be the earlier of (1) the last day specified in the P
notice to You when a Delinquency Triggering Eve

Transaction Date – The Transaction Date of a
Balance Transfer, Cash Advance, or Overdraft A

You, Your and Yours – means the Cardholder(s

Other Charges – Charges to Your Account as described in the Other Charges Section of this Agreement,
including fees for: Late Payments*, Annual Fee, Returned Payments*, Stop Payments*, Documentation*,
and Phone Payments*. *SunTrust will consider reversal of these Other Charges fees on open Accounts
in good standing if circumstances warrant such consideration, such as claims of Bank errors and other
mitigating factors.

ulated from the applicable APR. The DPR is
p year). SunTrust may use DPR to calculate
est Charges resulting from the application of
Daily Balances (including new transactions)
alance Transfers, Overdraft Advances, and

Overdraft Advance – Credit SunTrust extends to You in the form of a loan from the Account to cover an
overdraft on a deposit account that You designate at SunTrust. You must enroll in the SunTrust overdraft
protection program to receive this form of Credit.

ve Your payment in order for it to be on time.
ur on the same calendar day of each month.
Statement and at least 25 days after the end
e). To be timely, SunTrust must receive Your
d on Your Statement. If no time is stated on
s it by 5 p.m. Eastern Time on the Due Date;
unTrust personnel at a SunTrust branch, Your
y of the payment. Payments initiated through
ervice representative, or via SunTrust’s web

Promotional Rate – The DPR applied to Promotional Balances.

st receives prior to 5:00 p.m. Eastern Time
nt and in the Standard Payment Instructions
Payments that SunTrust receives after 5:00
s You make the payment directly to SunTrust
e. If SunTrust accepts a payment received at
nt and in the Standard Payment Instructions,
m to the Standard Payment Instructions, that
ays after the date of receipt. This delay may
ssible suspension of Your Account. Payments
f available) or via SunTrust’s web site will be

Standard Payment Instructions – These instru
Pay (1) in U.S. dollars, (2) not in cash, unless Y
deposit account or cashier’s check drawn on a
(e.g., “payment in full”) included or attached to t
Trust provides You, such as a Convenience Ch
paper form (like a check, money order, or cashie
Your Statement or write Your Card Account num
discretion to accept a form of payment that does
does not waive the Bank’s right to continue to r
SunTrust decides to accept a payment that You
conversion rate to apply. The date You mail the
payment. The payment date is the date that the
Standard Payment Instructions. If You fail to com
Your Account for the payment may be delayed. T
Charges, and possible suspension of Your Accou
phone pay. Mailed payments should be sent to:

Promotional Balance – Credit SunTrust extends for an introductory and other designated Purchase or
Balance Transfer transaction, subject to discounted fees and/or a different DPR than your standard DPR
for Purchases. Your use of a Promotional Offer from SunTrust results in a Promotional Balance.
Protected Account – An eligible SunTrust Consumer Checking Account, Savings Account, or Money
Market Savings Account linked to this SunTrust Consumer Credit Card for overdraft protection.
Protector Account – Your SunTrust Consumer Credit Card Account.
Purchase – Credit SunTrust extends to You when You or an Authorized User (1) use(s) the Card or
Account to purchase goods, labor, insurance or services through sellers and lessors that honor Your Card
or Account for the purpose of completing a Purchase or (2) use(s) a Convenience Check or other Credit
instrument that SunTrust provides for You to make a Purchase.
Returned Payment – A payment that You make that Your financial institution does not honor. If You
have a Returned Payment, SunTrust will assess a fee in accordance with the terms of this Agreement. If
SunTrust resubmits a Returned Payment and Your financial institution subsequently honors it, SunTrust
will still assess a Returned Payment fee because Your financial institution originally returned the payment
as unpaid. If Your financial institution returns a payment more than once, SunTrust will not charge more
than one Returned Payment fee. If You make a new payment to SunTrust, however, and Your financial
institution does not honor it, SunTrust will assess an additional Returned Payment fee.
Savings Account – the Savings Account (called “Secured Card Savings Account”) that You opened and
maintain and pledged (via security interest) to SunTrust to secure payment of your outstanding Balance.

The Personal Deposit Account Fee Schedu
Documents/Personal_Banking/Deposit_Acco

1

SunTrust now Truist, Member FDIC. ©202
Truist and the SunTrust logo are service m
All rights reserved.

d paying interest on certain transactions. As
s after the close of each Billing Period. This
o a Grace Period (See Interest Charges and
ect to a Grace Period, Your Account starts in
ntinue if You pay Your New Balance on time
not pay Your New Balance in a given Billing
st pay Your New Balance on time for 1 Billing
ch the Grace Period previously applied, You
ansactions will begin to accrue from the end
alance. For any such transactions that You
from the Transaction Date until the time that

ments to Your APR. The Index Rate is the
Wall Street Journal (Eastern Edition) on the
usiness day thereafter) of the prior calendar
published or the Prime Rate is not given on
y using the immediately preceding published
lable, SunTrust will choose a new index and
s will be effective on Your Billing Period that
month after the Index Rate is published. (For
ew APR would be effective as of the first day
ex Rate increase will increase the applicable

as a dollar amount that SunTrust derives by

s.

e. Protected Account) is jointly owned, any
Account (i.e. the Protector Account) may
owners of that deposit Account. However,
Account may cancel overdraft protection
t Account is enrolled in overdraft protection:
raft protection advances regardless of which
n overdraft (e.g. as a debit Card Purchase);
ormation about the Protected Account with
t and partial Account number. We reserve
ions of Your overdraft protection service at

es not receive before the Due Date.

r APR.

ccount as shown on Your Statement.

Advances, Overdraft Advances, Balance
Your Account on the Closing Date, plus all
e.

Standard Payment Instructions – These instructions require You to pay your credit Card bill as follows.
Pay (1) in U.S. dollars, (2) not in cash, unless You pay at one of SunTrust’s branches, (3) from a U.S.
deposit account or cashier’s check drawn on a U.S. financial institution, (4) without restrictive language
(e.g., “payment in full”) included or attached to the payment, and (5) not from a credit account that SunTrust provides You, such as a Convenience Check drawn on this Account. If You make payment in a
paper form (like a check, money order, or cashier’s check), You must include the payment coupon from
Your Statement or write Your Card Account number on the payment. If SunTrust decides in the Bank’s
discretion to accept a form of payment that does not meet these Standard Payment Instructions, SunTrust
does not waive the Bank’s right to continue to require payments that comply with these instructions. If
SunTrust decides to accept a payment that You make in a foreign currency, SunTrust will choose the
conversion rate to apply. The date You mail the payment is different from the date the Bank receives the
payment. The payment date is the date that the Bank receives Your payment in accordance with these
Standard Payment Instructions. If You fail to comply with these Standard Payment Instructions, credit to
Your Account for the payment may be delayed. This delay may result in additional Interest Charges, Other
Charges, and possible suspension of Your Account. Contact SunTrust at 1-800-477-9702 to inquire about
phone pay. Mailed payments should be sent to:
SunTrust Bank
Cardholder Services
P.O. Box 791278
Baltimore, MD 21279-1278
NOTE: Any disagreement that You may have with respect to charges on Your Statement must be presented to SunTrust in writing separately from your payment and to a different address than where Your
payments are sent. (See the “Your Billing Rights” Section of this Agreement.)
Statement – SunTrust will send You a bill at the end of each Billing Period if Your Account has a debit
Balance of any amount or a credit Balance of more than $1, unless SunTrust has decided Your Account
is uncollectible or has closed or suspended Your Account for collection proceedings against You. The
Statement will tell You the total Balance that You owe the Bank as of the end of the last Billing Period. It
will also tell You the Minimum Payment that You must pay the Bank by the stated Due Date.
SunTrust – means (1) SunTrust Bank, the bank that is providing You Credit, and will include (2) any
person(s) to whom the Credit is transferred or assigned; (3) any Covered Provider; (4) the parents, controlling persons, subsidiaries and affiliates of the companies in (1)-(3) above; (5) the successors and
predecessors of the companies in (1)-(4) above; and (6) the officers, directors and employees of the
companies in (1)-(5) above. SunTrust may also be referred to as “the Bank.” Solely for purposes of the
Arbitration Provision contained in this Agreement, the term “SunTrust” shall also apply to any third parties
if You assert a Claim against such third parties in connection with a Claim You assert against SunTrust.
Termination Date – This is the last day a Promotional Rate will apply to a Promotional Balance. It will
be the earlier of (1) the last day specified in the Promotional Balance offer or (2) the date identified in any
notice to You when a Delinquency Triggering Event occurs.
Transaction Date – The Transaction Date of a Purchase is the sale date. The Transaction Date of a
Balance Transfer, Cash Advance, or Overdraft Advance is the date that You request such a transaction.
You, Your and Yours – means the Cardholder(s).

he Other Charges Section of this Agreement,
ayments*, Stop Payments*, Documentation*,
hese Other Charges fees on open Accounts
n, such as claims of Bank errors and other

form of a loan from the Account to cover an
st. You must enroll in the SunTrust overdraft

oductory and other designated Purchase or
/or a different DPR than your standard DPR
st results in a Promotional Balance.

ces.

cking Account, Savings Account, or Money
Credit Card for overdraft protection.

d Account.

an Authorized User (1) use(s) the Card or
ugh sellers and lessors that honor Your Card
use(s) a Convenience Check or other Credit
se.

financial institution does not honor. If You
ordance with the terms of this Agreement. If
institution subsequently honors it, SunTrust
ial institution originally returned the payment
re than once, SunTrust will not charge more
ent to SunTrust, however, and Your financial
al Returned Payment fee.

ard Savings Account”) that You opened and
cure payment of your outstanding Balance.

The Personal Deposit Account Fee Schedule is accessible at https://www.suntrust.com/Static/
Documents/Personal_Banking/Deposit_Account_Disclosures/FSRETAILE.pdf.

1

SunTrust now Truist, Member FDIC. ©2020 Truist Financial Corporation. SunTrust®,
Truist and the SunTrust logo are service marks of Truist Financial Corporation.
All rights reserved.

The pricing addendum for the SunTrust Secured Card with Cash Rewards is accurate as of June 30, 2021.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 16.74%

APR for Balance
Transfers

Prime Rate + 16.74%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances
and Overdraft Advances

Prime Rate + 21.74%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We
will begin charging Interest on Cash Advances and Balance Transfers on the transaction
date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $0.50.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

• $32

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

• $10.00 or 4% of the amount of the transfer, whichever is greater.

Penalty Fees
• Late Payment
• Return Payment

• $10.00 or 4% of the amount of each advance, whichever is greater.
• 3% of each transaction after conversion to U.S. dollars.

• Up to $39
• Up to $39

How We Will Calculate Your Balance: We use a method called "average daily balance” (including new transactions).
th

Prime Rate: We use the prime rate quoted in the “Money Rates” section of The Wall Street Journal on the 28 day (or if the
th
28 day is not a business day, the next business day thereafter) of the prior calendar month.

SunTrust Bank, now Truist Bank, Member FDIC. ©2020 Truist Financial Corporation. SunTrust®, the SunTrust logo, and Truist are service marks of Truist
Financial Corporation. All rights reserved.
19

